<html>
<title> - LEGAL SERVICES CORPORATION IMPROVEMENT ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                      LEGAL SERVICES CORPORATION 
                            IMPROVEMENT ACT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   COMMERCIAL AND ADMINISTRATIVE LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 6101

                               __________

                           SEPTEMBER 26, 2006

                               __________

                           Serial No. 109-158

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
30-068                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

           Subcommittee on Commercial and Administrative Law

                      CHRIS CANNON, Utah Chairman

HOWARD COBLE, North Carolina         MELVIN L. WATT, North Carolina
TRENT FRANKS, Arizona                WILLIAM D. DELAHUNT, Massachusetts
STEVE CHABOT, Ohio                   CHRIS VAN HOLLEN, Maryland
MARK GREEN, Wisconsin                JERROLD NADLER, New York
J. RANDY FORBES, Virginia            DEBBIE WASSERMAN SCHULTZ, Florida
LOUIE GOHMERT, Texas

                  Raymond V. Smietanka, Chief Counsel

                        Susan A. Jensen, Counsel

                        Brenda Hankins, Counsel

                   Mike Lenn, Full Committee Counsel

                   Stephanie Moore, Minority Counsel


                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 26, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable Chris Cannon, a Representative in Congress from the 
  State of Utah, and Chairman, Subcommittee on Commercial and 
  Administrative Law.............................................     1
The Honorable Melvin L. Watt, a Representative in Congress from 
  the State of North Carolina, and Ranking Member, Subcommittee 
  on Commercial and Administrative Law...........................     3

                               WITNESSES

Mr. Richard ``Kirt'' West, Inspector General, Legal Services 
  Corporation
  Oral Testimony.................................................     7
  Prepared Statement.............................................     9
Mr. David C. Williams, Inspector General, The United States Post 
  Office
  Oral Testimony.................................................    12
  Prepared Statement.............................................    13
Mr. Frank Strickland, Chairman of the Board, Legal Services 
  Corporation
  Oral Testimony.................................................    14
  Prepared Statement.............................................    16

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Chris Cannon, a 
  Representative in Congress from the State of Utah, and 
  Chairman, Subcommittee on Commercial and Administrative Law....     2

                                APPENDIX
               Material Submitted for the Hearing Record

Letter from Edouard R. Quatrevaux to the Honorable Chris Cannon, 
  a Representative in Congress from the State of Utah, and 
  Chairman, Subcommittee on Commercial and Administrative Law....    42
Memorandum to Board of Directors of the Legal Services 
  Corporation from Covington & Burling L.L.P.....................    43
January Transcripts of the Minutes of the Board and the 
  Performance Review Committee of the Legal Services Corporation.    72


               LEGAL SERVICES CORPORATION IMPROVEMENT ACT

                              ----------                              


                      TUESDAY, SEPTEMBER 26, 2006

                  House of Representatives,
                         Subcommittee on Commercial
                            and Administrative Law,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Chris 
Cannon (Chairman of the Subcommittee) presiding.
    Mr. Cannon. The Subcommittee on Commercial and 
Administrative Law will please come to order.
    The Subcommittee on Commercial and Administrative Law is 
meeting this afternoon to consider H.R. 6101, the ``Legal 
Services Corporation Improvement Act,'' a bill I introduced in 
response to a disturbing pattern of events that have come to 
the Subcommittee's attention. I will keep my opening remarks 
brief as I believe the testimony and the opportunity to ask 
questions of our witnesses will prove to be valuable.
    Congress created the Inspector General system in 1978. The 
purpose of this system is to ensure that the Federal agencies 
follow proper Government procedures and policies. There are two 
types of IGs, those appointed by the President and those 
appointed by individual agencies. The presidential appointees 
can only be dismissed by the President. In contrast, agency 
appointees, such as the LSC IG, can be fired directly by the 
agency. As a result, agency-appointed IGs stand a greater risk 
of retaliation from agency heads. The only restraint on agency 
heads firing their IGs is they are required to provide notice 
to Congress of the removal along with reasons for their 
decision.
    H.R. 6101 would simply amend the Legal Service Corporation 
Act to provide that the IG may at any time be removed, but only 
upon the written concurrence of at least nine members of the 
11-member Board. The current law only requires a simple 
majority of the Board to remove the IG; namely, six members.
    The purpose of today's hearing is to examine whether LSC's 
Inspector General needs increased protection from retaliation 
by the Board of Directors as provided in H.R. 6101.
    The Legal Services Corporation's Board of Directors hired 
Kirt West as the LSC IG in 2004. One of his first reports was 
issued in response to an inquiry from this Subcommittee 
regarding the lease arrangement for LSC's headquarters. Rather 
than accept the IG's report on the lease and cooperate in 
implementing his conclusions, the LSC Board of Directors 
instead rejected the report and contemplated removing the IG.
    Whereas the most important characteristic of an inspector 
general is independence, there would appear to be an obvious 
and inherent conflict between any IG and the agency for which 
he or she serves. The IG is charged with oversight of the 
functioning of the agency and must as a matter of course 
conduct investigations of those who control the agency, the 
same people to whom he or she reports and with whom a working 
relationship must be maintained.
    It is quite clear, based on comments made by LSC board 
members, that they either don't understand the concept of an IG 
or have no respect for the IG.
    I drafted H.R. 6101, the ``Legal Services Corporation 
Improvement Act,'' to provide some greater degree of 
independence for LSC's IG. I must stress that the measure was 
not drafted in response to problems limited to the current 
Board and IG, but in response to a pattern of problems that 
predate both the present IG and LSC administration. I cite a 
letter of support for this administration from former LSC's 
former Inspector General, Ed Quatrevaux, which underscores the 
need for H.R. 6101. I ask unanimous consent that a copy of this 
letter be included in the hearing record and hearing no 
objection, so ordered.
    [The information referred to is available in the Appendix.]
    Mr. Cannon. Mr. Quatrevaux states, ``I fought numerous 
challenges to IG independence with the LSC Board of Directors 
and headquarters' management. My understanding that the current 
IG is facing many of the same problems with a different Board 
and management leads me to believe that LSC's propensity to 
challenge the authorities and dependence of the IG is an 
institutional problem.''
    Other agencies have experienced similar issues with their 
IGs. To remedy the conflict in two agencies, Congress created a 
bar for dismissal of the Inspector General for the United 
States Postal Service and a bar for the United States Capitol 
Police which is higher than that proposed in H.R. 6101.
    I expect David Williams, our witness from the Postal 
Service, will explain why such protections for Inspector 
General are necessary.
    Indeed, I look forward to receiving the testimony from each 
of our witnesses, and I anticipate this hearing will be very 
informative and constructive endeavor.
    I now turn to my colleague, Mr. Watt, and the distinguished 
Member of my Subcommittee, and ask him if he has any opening 
remarks.
    [The prepared statement of Mr. Cannon follows:]

 Prepared Statement of the Honorable Chris Cannon, a Representative in 
    Congress from the State of Utah, and Chairman, Subcommittee on 
                   Commercial and Administrative Law

    The Subcommittee will please come to order.
    The Subcommittee on Commercial and Administrative Law is meeting 
this afternoon to consider H.R. 6101, the ``Legal Services Corporation 
Improvement Act,'' a bill I introduced in response to a disturbing 
pattern of events that have come to our attention. I will keep my 
opening remarks brief, as I believe that the testimony and the 
opportunity to ask questions of our witnesses will prove to be more 
valuable. Also, I want to leave as much time as possible for Members of 
the Subcommittee to utilize this opportunity.
    Congress created the inspector general system in 1978. The purpose 
of this system is to insure that federal agencies follow proper 
government procedures and policies. There are two types of IGs: those 
appointed by the President, and those appointed by individual agencies. 
The Presidential appointees can only be dismissed by the President. In 
contrast, agency appointees, such as the LSC IG, can be fired directly 
by the agency. As a result, agency-appointed IGs stand a greater risk 
of retaliation from agency heads. The only restraint on agency heads 
firing their IGs is that they are required to provide notice to 
Congress of the removal along with reasons for their decision.
    H.R. 6101 would simply amend the Legal Services Corporation Act to 
provide that the Inspector General may at any time be removed, but only 
upon the written concurrence of at least nine members of the 11-member 
Board. The current law only requires a simple majority of the Board to 
remove the IG, namely, six members.
    Today's hearing will examine whether LSC's Inspector General needs 
increased protection from retaliation by the Board of Directors, as 
provided by H.R. 6101.
    The Legal Services Corporation's Board of Directors hired Kirt West 
as the LSC IG in 2004. One of his first reports was issued in response 
to an inquiry from this Subcommittee regarding the lease arrangement 
for LSC's headquarters. Rather than accept the IG's report on the lease 
and cooperate in implementing his conclusions, the LSC Board of 
Directors instead rejected the report and contemplated removing the IG.
    Whereas the most important characteristic of an Inspector General 
is independence, there would appear to be an obvious and inherent 
conflict between any IG and the agency for which he or she serves. The 
IG is charged with oversight of the functioning of the agency and must, 
as a matter of course, conduct investigations of those who control the 
agency--the same people to whom he or she reports and with whom a 
working relationship must be maintained.
    It is quite clear, based on comments made by LSC Board members, 
that they either don't understand the concept of an IG or have no 
respect for an IG.
    I drafted H.R. 6101, the ``Legal Services Corporation Improvement 
Act,'' to provide some greater degree of independence for LSC's IG. I 
must stress that this measure was not drafted in response to problems 
limited to the current Board and IG, but in response to a pattern of 
problems that predate both the present IG and LSC administration. I 
cite a letter of support for this legislation from LSC's former 
Inspector General, Ed Quatrevaux, which underscores the need for H.R. 
6101. On unanimous consent, I ask that a copy of this letter be 
included in the hearing record. Hearing no objection, it is so ordered. 
He states, ``I fought numerous challenges to IG independence with the 
LSC Board of Directors and headquarters' management. My understanding 
that the current IG is facing many of the same problems with a 
different Board and management leads me to believe that LSC's 
propensity to challenge the authorities and independence of the IG is 
an institutional problem.''
    Other agencies have experienced similar issues with their IGs. To 
remedy the conflict in two agencies, Congress created a bar for 
dismissal of the inspector general for the United States Postal Service 
and a bar for the United States Capitol Police, which is higher than 
that proposed in H.R. 6101 for the IG at LSC. I expect David Williams, 
our witness from the Postal Service, will explain why such protections 
for inspectors general are necessary.

    Mr. Watt. Thank you, Mr. Chairman, and thank you for 
convening the hearing, I guess. For over 3 decades the Legal 
Services Corporation has provided legal services to the poor. 
Today there are currently more than 45 million Americans who 
qualify for assistance from one of the Legal Services' 143 
grantees nationwide. Legal Services clients are as diverse as 
our Nation, consisting of individuals of all races, ethnic 
groups and ages. They include the poor, working poor, veterans, 
family, farmers, people with disabilities and victims of 
natural disasters. More than two-thirds of the Legal Services 
Corporation's clients are women, most of them mothers.
    Because the Legal Services Corporation receives Federal 
funds, it is certainly appropriate that Congress provide 
oversight. The hearing on H.R. 6101 is the product of perceived 
threats to the independence of the Inspector General. I would 
suggest to you that a bill introduced on September 19th, I 
guess having a hearing this soon shows the power that a 
Chairman in our institution has and perhaps indicates some 
institutional problems, too.
    But that aside, Congressional oversight is certainly a 
valuable tool and one which enables us to ensure that Federal 
agencies and entities within our jurisdictions are operating 
effectively and within the mandates of the law. But 
Congressional oversight is a very powerful tool and must not be 
misused or abused.
    In the past 2 months, newspapers and television accounts 
have vilified the leadership of the Legal Services Corporation 
based upon leaks apparently from Hill staff or from the IG's 
office itself. These leaks from a then ongoing investigation 
were inappropriate and unprofessional and, as it turns out, 
mostly inaccurate.
    The IG's report provided to us yesterday has found some 
criminal violations, no deliberate malfeasance and in most 
instances no disregard for LSC policy. At most, the Inspector 
General has found that perhaps there should be a policy where 
there is none and LSC, according to his cover letter, has 
agreed to comply.
    However difficult this investigation was for all involved, 
I simply do not believe that Congress is in the position to 
referee every discovery dispute or police every personality 
conflict that understandably arises in the course of IG's 
investigations.
    There are processes in place to resolve those disputes and 
congressional intervention in the midst of pending 
investigation has proven not to be all that constructive. The 
LSC board is a volunteer, presidentially appointed Board. And 
this Congress seems to be giving it more trouble since this 
President has been appointing it than when other Presidents 
were appointing.
    If we are to continue to attract qualified, dedicated 
professionals to fill these positions, they must be assured 
that they will not be subject to abuse and harassment. These 
are troubling allegations, however. They are troubling 
allegations that former disgruntled employees of the LSC who 
now happen to be Congressional staff have been very heavy 
handed, biased and the source of many of the substantiated 
complaints by the IG. Indeed, the IG's letter transmitting his 
report on certain fiscal practices of the Legal Services 
Corporation concedes that Congressional staff were the source 
of certain allegations he chose to investigate. While I do not 
know whether former employees of LSC who are now Congressional 
staff have misused their positions to harass or retaliate 
against LSC, I do believe that we must be especially vigilant 
in ensuring that all inquiries from this Subcommittee and from 
the Senate Subcommittees are made in good faith.
    The bill before us today in my estimation unreasonably 
raises the bar for removal of an Inspector General by the LSC 
board excessively high, higher in fact than that required to 
remove a Board member. While any IG must be permitted to do his 
or her job without interference, the normal give and take of 
internal orders and investigations does not rise to the level 
of obstruction presumed by this bill.
    Moreover, the suggestion that a Board with the statutory 
power to hire and fire cannot exercise the power to dismiss an 
IG simply because he is investigating or has the authority to 
investigate the Board would probably invite endless 
illegitimate investigations by an IG desperate to maintain a 
job. If we are to create such an incentive, at least we are to 
provide for attorney fees if somebody finds that these things 
get personal and bear no fruit.
    Similar provisions were included in the Independent Counsel 
Act to provide balance to the otherwise extraordinary, 
unfettered, independent, conferred response upon the special 
counsels under that.
    I look forward to hearing from the witnesses. And I would 
have to say, Mr. Chairman, that this is yet another one of 
those instances where it seems to me that we are proposing to 
legislate to get a result rather than legislating to have a 
policy and practice that makes sense in the whole context of 
what we are doing.
    We can't pick and choose results here. Sometimes we like 
the result, sometimes we don't like the result. But there ought 
to be processes in place that are consistent and not just based 
on personal animosities. With that, I will yield back the 
balance of my time.
    Mr. Cannon. Without objection, the gentleman's entire 
statement will be placed in the record. Hearing no objection, 
it will be so ordered.
    [The information referred to was not available at the time 
of the printing of this hearing.]
    Mr. Cannon. Now will the gentleman be agreeable to 
inserting his legal fees in the bill and getting his co-
sponsorship?
    Mr. Watt. No, because I haven't looked at the bill. I mean, 
you introduced the bill September 19. Today is September 25. If 
you had any----
    The Chairman. It is a very short bill.
    Mr. Watt. If you had any interest in getting my support for 
this bill, I am sure I would have known about it before it got 
introduced.
    Mr. Cannon. I am certain, sufficiently certain that staff 
has been talking about it on both sides. But if you would like 
to negotiate about attorney fees, I would love to include that 
into the system.
    Without objection, all Members may place their statements 
in the record. Without objection, the Chair will be authorized 
to declare a recess at any point. Hearing no objection, so 
ordered. I ask unanimous consent that Members have 5 
legislative days to submit written statements for inclusion in 
today's hearing record. Hearing no objection, so ordered.
    I am now pleased to introduce the witnesses for today's 
hearing.
    Our first witness is Kirt West, the Inspector General for 
the Legal Services Corporation. As I previously noted, he has 
served in this capacity since September 2004. Prior thereto, he 
served in very executive positions at the U.S. Postal Service 
Office of Inspector General from 1998 to 2004.
    His Government service also includes a stint as assistant 
counsel to the Inspector General in the Central Intelligence 
Agency. In addition, he has spent more than 10 years at the 
United States Department of Labor as assistant counsel to the 
Inspector General.
    Mr. West received his undergraduate degree from Lawrence 
University in 1969 and earned his Juris Doctor from the 
Northwestern University School of Law in 1984.
    Our next witness is the Inspector General for the U.S. 
Postal Service, David Williams. His office has oversight 
responsibility of the U.S. Postal Inspection Service, a Federal 
law enforcement agency within the Postal Service. Mr. Williams 
was sworn in as the second Inspector General at the Postal 
Service in August of 2003.
    Mr. Williams previously served as IG for five Federal 
agencies. He was first appointed by President George H.W. Bush 
to serve as the IG for the U.S. Nuclear Regulatory Commission 
from 1989 to 1996. President Clinton next appointed him as the 
IG for the Social Security Administration from 1996 to 1998 and 
thereafter as the IG for the Department of Treasury in 1998. In 
1999, President Clinton named him as the first IG for tax 
administration of the Department of Treasury, where he directed 
a staff of 1,050 to detect waste, fraud and abuse. In 2001 
President George W. Bush named Mr. Williams to be the Acting IG 
for the Department of Housing and Urban Development.
    Mr. Williams is the recipient of the Bronze Star and the 
Vietnamese Medal of Honor for service in Vietnam. He received 
his undergraduate degree from Southern Illinois University and 
earned his Advanced Degree in Education and a Masters in 
Education from the University of Illinois. He also attended the 
U.S. Military Intelligence Academy, the Federal Law Enforcement 
Training Center, and the U.S. Secret Service Training Academy. 
We like tough guys. Maybe I should speak generally, but I think 
Mr. Watt likes tough guys.
    Our final witness is Frank Strickland, who is the Chairman 
of the Board of the Legal Services Corporation. He is a partner 
in the Atlanta firm of Strickland Brockington Lewis LLP.
    President Bush nominated Mr. Strickland to the LSC Board of 
Directors in 2002, and he was sworn in as a member of the Board 
and elected Board chairman in April of 2003.
    Mr. Strickland received his undergraduate degree from 
Vanderbilt University and his law degree from Emory University. 
He served in the U.S. Coast Guard and is Commander in the U.S. 
Coast Guard reserves on retired status. Also a tough guy, I 
might say.
    In addition, I would also like to note that that we are 
missing a witness at today's hearing. The empty chair at the 
witness table is for the Legal Services Corporation President 
Helaine Barnett. According to Ms. Barnett, Chairman Strickland 
does not believe it is necessary for her to testify, perhaps an 
important topic for this Subcommittee to explore with him this 
afternoon.
    I extend to all of you my warm regards and appreciation for 
your willingness to participate at today's hearing. In light of 
the fact that your written statements will be included in the 
hearing record, I request that you limit your oral remarks to 5 
minutes. Accordingly, please feel free to summarize or 
highlight the salient points of your testimony.
    You note we have a lighting system in front of you that 
starts with a green light. After 4 minutes it turns to a yellow 
light, and then at 5 minutes it turns to a red light. It is my 
habit to tap the gavel at 5 minutes. We could appreciate it if 
you could finish up your thoughts within that time frame. We 
don't like to cut people off in their thinking, but I find that 
it works much better if everybody knows that 5 minutes is 5 
minutes.
    Other people may be joining us here. If not, we may be a 
little more loose than that, but it is my tendency to tap with 
a pencil just to draw your attention the light has run and so 
we will move on and then strictly abide by the 5-minute rule 
when we go to questioning if we have other members. If it is 
just Mr. Watt and me, we tend to be a little more lax on that. 
After you have presented your remarks to the Subcommittee, in 
the order they arrive they will be permitted to ask questions 
to that witness subject to that 5-minute rule.
    Pursuant to the directive of the Chairman of the Judiciary 
Committee, I ask the witnesses to please stand and raise your 
right hand to take the oath.
    The record will reflect the witnesses answered in the 
affirmative.
    [Witnesses sworn.]
    Mr. Cannon. We will start with Mr. West. Would you please 
proceed with your testimony?

 STATEMENT OF RICHARD ``KIRT'' WEST, INSPECTOR GENERAL, LEGAL 
                      SERVICES CORPORATION

    Mr. West. Good afternoon, Chairman Cannon, Ranking Member 
Watt. My name is Kirk West. As you have mentioned, I have had 
nearly 20 years of experience with other IGs at Labor, CIA, and 
the Postal Service. I also had the privilege of working for 
David Williams when he was the--when I was at the Postal 
Service and in the capacity as IG. With your approval, I would 
like to submit my written statement for the record.
    Thank you for giving me the opportunity to comment on H.R. 
6101. Since the passage of the 1988 IG Act amendments, LSC has 
had an IG that reports to an 11 member part-time Board of 
Directors. The LSC board has been and is now comprised of 
honorable and dedicated individuals who brought with them a 
high degree of understanding and commitment to delivery of 
legal services to the poor. Past and current Boards, however, 
have not brought with them the same degree of understanding or 
experience concerning the role of the Inspector General.
    The challenges faced by the LSC IGs are longstanding. They 
are neither new nor unique to the current Board. The longest 
serving is Ed Quatrevaux, who held the post from 1991 to 2000. 
Mr. Quatrevaux has lent his support to H.R. 6101. He has stated 
the problems that I am facing, the same problems he faced with 
a different Board and with a different LSC management, leading 
him, as I have also, to conclude that LSC has an institutional 
problem in recognizing the proper role of the IG.
    The Board's failure to recognize the role of the IG has led 
some members to react negatively to my reports, calling them 
prosecutorial and inflammatory. However, Mr. Chairman and Mr. 
Watt, I can tell you that based on my experience in the IG 
community that my reports are no different in character than 
those of the other 57 IGs in the Government.
    The Board's reaction to them, however, is different than my 
experience at other agencies. What may seem appropriate to the 
Board based on their non-Federal background and limited 
experience with IGs are from my perspective attempts to 
retaliate against me for issuing critical reports and asserting 
IG independence. As recently as this past weekend an Associated 
Press article described the Board's efforts to fire me or 
certainly to consider firing me.
    Mr. Chairman, you and other Members of Congress have 
repeatedly put the Board on notice that any attempt to remove 
me would be construed as retaliation for conducting the very 
work that you have requested. I feel that if Congress had not 
intervened on my behalf it would have been impossible for me to 
fully carry out my statutory duty under the IG Act.
    Unfortunately, my problems have continued. On August 25th, 
the Board's chairman and vice chairman provide a, quote, 
informal feedback, unquote, on my performance. This was highly 
questionable given that the Board knew at the time I was 
investigating allegations regarding expenses and other matters 
involving the Board. I found that not only threatening and 
retaliatory but also to have the potential of causing others, 
including Congress, to question whether the feedback could have 
influenced my report.
    These events notwithstanding, I am pleased to report that 
my staff of highly experienced IG auditors, investigators and 
attorneys and I have not been deterred from carrying out the IG 
mission. Recently, I submitted a report to the Subcommittee in 
which the OIG found substantial evidence that an LSC grantee, 
California Rural Legal Assistance, Inc., violated Federal law 
by soliciting clients, working a fee generating case, 
requesting attorney fees and associating CRLA with political 
activities. Yesterday, I issued a report on the investigation 
that you requested regarding LSC spending practices, and I will 
be reporting to you later on your concerns about other LSC 
management practices and potential conflicts of interest.
    I would like now to provide some comments on H.R. 6101, 
which is modeled after the similar provision of the United 
States Postal Service. As background, there are two categories 
of Inspectors General: Those appointed by the President and 
those appointed by their agency head. Presidentially-appointed 
Inspectors General cannot be fired by their agency head; only 
the President can do that. On the other hand, Inspectors 
General appointed by their agency head can also be fired by 
their agency head, which is the current situation at LSC. And 
usually it requires an appearance before the Merit Systems 
Reduction Board. The LSC IG, however, is an at-will employee 
and can be fired without cause and without a hearing. Thus, the 
LSC IG has the least amount of job security and therefore 
potentially the most easily subjected to undue or improper 
pressure.
    Therefore, I support H.R. 6101 because it enhances 
Inspector General independence. In my opinion, H.R. 6101 is an 
appropriate, balanced, and thoughtful proposal to enhance 
Inspector General independence that will make LSC more 
transparent and accountable to Congress and the public.
    Mr. Chairman, thank you for this opportunity to testify 
before the Subcommittee.
    [The prepared statement of Mr. West follows:]

                   Prepared Statement of R. Kirt West

                              INTRODUCTION

    Chairman Cannon, Ranking Member Watt, and Members of the 
Subcommittee: my name is Kirt West. Thank you for giving me the 
opportunity to comment on H.R. 6101, which will improve the ability of 
the LSC Inspector General (IG) to function like any other Inspector 
General. By way of personal background, I have been the Inspector 
General of the Legal Services Corporation (LSC) since September 1, 
2004. Before becoming Inspector General, I served for nearly twenty 
years as a career Federal employee in various legal and executive 
capacities for Inspectors General: at the Department of Labor, the 
Central Intelligence Agency, and the United States Postal Service. At 
the United States Postal Service which is a quasi-federal agency like 
LSC, I worked with a Presidentially-appointed part-time Board, 
comprised almost exclusively of outside directors who did not have any 
Inspector General experience. I also worked for Inspector General David 
Williams while at the Postal Service.
    Since the passage of the 1988 Inspector General Act amendments, LSC 
has had an Inspector General. Throughout those years my predecessors 
and I have reported to and been under the general supervision of a 
part-time 11-member LSC Board of Directors, unlike most Inspectors 
General who report to a full-time agency head. The LSC Board has been 
and is now comprised of honorable and dedicated individuals who have 
brought with them a high degree of understanding of the delivery of 
legal services to the poor, which is an asset to the position. Past and 
current LSC Boards, however, have not brought with them the same degree 
of understanding or experience concerning the role of the Inspector 
General. Historical and institutional misunderstanding between past and 
current Boards and their Inspectors General has threatened the 
independence and effectiveness of the LSC Inspector General.
    Efforts by LSC Boards and LSC management to stifle Inspector 
General independence through intimidation and retaliation appear to 
have existed throughout the history of the LSC Office of Inspector 
General. These problems are neither new to LSC nor unique to the 
current Board and Inspector General. The longest-serving LSC Inspector 
General, Edouard R. Quatrevaux, has lent his support to your bill and 
has stated that the problems I am facing are the same problems he faced 
with a different Board and with different LSC management, leading him 
to conclude that LSC has an institutional problem in recognizing the 
proper role of an Inspector General. Inspector General Quatrevaux was 
criticized for issuing reports that the former Board did not like and 
for communicating with Congress. He reported to Congress that the 
Board's criticism posed a potential impairment on his independence. As 
a result, GAO was called in to intervene but the disagreement between 
the Board and the Inspector General about the Board's proper role in 
evaluating the Inspector General still remains unresolved.
    As a preliminary matter, I would like to note that I am not 
completely comfortable commenting on H.R. 6101, a legislative proposal 
that would have an impact on the Inspector General office that I 
currently hold. As someone who has worked in the federal Inspector 
General community for so long, it has become second-nature for me to 
try to ensure that whatever I say or do is legal and ethical and 
impartial. Ordinarily I would not volunteer to comment either one way 
or the other on a matter such as H.R. 6101, which could affect me 
personally. However, at your request I am prepared to offer my views 
concerning the proposed legislation. H.R. 6101 is similar to a 
provision enacted for the Inspector General of the United States Postal 
Service. The bill would, if enacted, require nine of the eleven LSC 
Board members to agree to remove me or a future incumbent from the 
position of Inspector General. It would require three more Board 
members than the current majority requirement of six to remove me or my 
successors.
    When I agreed to become the Inspector General for LSC in 2004 I was 
aware that there had been an Inspector General at LSC since the late 
1980's. I was relatively confident that the LSC Board had gone through 
the same familiarization process as other agency heads in dealing with 
the Inspector General concept. I lived through those processes at the 
Department of Labor, the CIA, and the Postal Service, where those 
agency heads eventually came to terms with having an Inspector General 
who was independent, who had access to information, and who reported 
openly and regularly to Congress. Over the past two years, however, I 
have become aware that LSC Boards have not developed the same 
understanding of the role of their Inspector General.
    My initial experience of the lack of appreciation of the IG concept 
and the role of the Inspector General occurred when I issued my first 
report to Congress concerning the LSC headquarters lease. As I 
testified before this Subcommittee last June, the report made several 
observations, including that LSC was paying too much rent and paying 
higher rent than other tenants. The then 10-member LSC Board (6 of whom 
remain on the current Board) unanimously ``rejected'' the lease report. 
The report, however, had undergone a quality review that ensured it 
contained accurate information. The report was predicated on the work 
of two independent real estate appraisal experts as well as very senior 
and experienced career IG auditors and lawyers. The fact that the Board 
``rejected'' this report was an early indication that the Board did not 
fully comprehend the role of an Inspector General.
    I have taken affirmative steps to help familiarize the Board with 
what an independent, effective Inspector General is supposed to do. I 
arranged for David Williams, a highly-respected Inspector General with 
many years of experience, to address the LSC Board, which he did. Mr. 
Williams, who served not only as Inspector General at the Nuclear 
Regulatory Commission, the Treasury Department, the Internal Revenue 
Service, and at the United States Postal Service, but also as the first 
chief investigator at the then Government Accounting Office, spoke to 
the Board at length about the role of an Inspector General. In 
addition, I arranged for a meeting with the LSC Chairman and Senate 
appropriations staff to share a Congressional perspective about the 
role of an Inspector General and how an agency should interact with its 
Inspector General. I offered to arrange more such meetings. I also 
suggested to the LSC Chairman that we meet with the Deputy Director for 
Management at the Office of Management and Budget, who serves as the 
Chairman of the Inspector General councils. Finally, I reported my 
concerns to the Vice-Chairman of the Executive Council on Integrity and 
Efficiency in an attempt to find other, informal ways of improving the 
LSC Board's relationship with the Inspector General.
    The Board's failure to recognize the Inspector General's role has 
led some members to react negatively to my reports, calling them 
prosecutorial and inflammatory. However, Mr. Chairman, I can tell you 
and members of the Subcommittee that based on my 20+ years of 
experience in the IG community my reports are no different in character 
than those issued by other IGs. The Board's reaction to them, however, 
is different than what my experience prepared me for. What may seem 
appropriate to the Board based on the members' non-federal backgrounds 
and limited experience with IGs are from my perspective attempts to 
retaliate against me for issuing critical report and for asserting IG 
independence. The Board's misunderstanding of the role of its Inspector 
General may not be so surprising given the background and experience of 
most members in the non-Federal sector, which is generally unfamiliar 
with the Inspector General concept, a concept that was also difficult 
in the early years of the IG Act for some agencies.
    For example, as recently as this past weekend, an Associated Press 
article quoted the proceedings of a closed Board meeting which the 
article described the Board's discussion about firing me. There had 
been previous concerns that some Board members would like to fire me. 
As a result, Mr. Chairman, you wrote the LSC Board in July of last year 
to express your concerns. In addition, Senators Enzi and Grassley wrote 
to the LSC Board in April 2006 informing the Board that any attempt to 
remove the Inspector General would be construed as retaliation and 
obstruction of an investigation that they, along with you, Mr. 
Chairman, had asked me to conduct on a number of issues involving the 
LSC Board and the LSC President. I feel that if Congress had not 
intervened on my behalf, it would have been impossible for me to carry 
out my statutory duties under the IG Act.
    My difficulties, unfortunately, have continued. On August 25, the 
Board provided ``informal feedback'' on my performance. Among other 
things, I was told that I take a prosecutorial stance towards 
management, I issue inflammatory reports and I am not a positive help 
to LSC. These and other criticisms by the Board are examples of a 
misunderstanding about the role of an Inspector General, which includes 
being independent and objective, obtaining necessary information, and 
reporting findings that could be critical of management.
    The decision of the Board to provide ``informal feedback'' was 
highly questionable given that the Board knew I was investigating 
allegations regarding expenses and other matters involving the Board. 
While I respect the role of the Board, which is statutorily responsible 
for the ``general supervision'' of the Inspector General, and while the 
Board may have felt its actions were appropriate from the private-
sector perspective, I found the ``informal feedback'' not only 
threatening and retaliatory but also having the potential of causing 
others, including Congress, to question whether the feedback could have 
influenced my report.
    These events notwithstanding, I am pleased to report that my staff 
of highly experienced IG auditors, investigators and attorneys and I 
have not been deterred from carrying out the IG mission. Recently, I 
submitted a report to the Subcommittee in which the OIG found 
substantial evidence that an LSC grantee, California Rural Legal 
Assistance, Inc., violated federal law by soliciting clients, working a 
fee generating case, requesting attorney fees, and associating CRLA 
with political activities. Yesterday, I issued a report on the 
investigation that you requested regarding LSC spending practices and 
will be reporting to you later on your concerns about other LSC 
management practices and potential conflicts of interest.
    I would like now to provide some comments to H.R. 6101, which 
proposes to amend the Legal Service Corporation Act to provide 
appropriate removal procedures for the Inspector General. In addition 
to the Board's current authority to appoint and remove the Inspector 
General, the proposed legislation states that ``The Inspector General 
may at any time be removed upon the written concurrence of at least 9 
members of the Board.'' As background, there are two categories of 
Inspectors General: those appointed by the President, and those 
appointed by their agency head. Presidentially-appointed Inspectors 
General cannot be fired by their agency head; only the President can do 
that. On the other hand, Inspectors General appointed by their agency 
head can also be fired by their agency head, which is the current 
situation at LSC. However, because virtually every other Inspector 
General appointed by their agency head is also a Federal employee, they 
could not be fired without cause. The Inspector General at LSC, 
however, is an at-will employee and can be fired without cause. Thus, 
the LSC Inspector General stands out as the Inspector General who has 
the least amount of job security and therefore potentially the most 
easily subject to undue or improper pressure.
    I support H.R. 6101 because it enhances Inspector General 
independence. The bill could go further by requiring removal for cause. 
At this time I would not recommend making the office a Presidential 
appointment. However, that is an option worth keeping available in the 
event it is needed. There is already precedent for Congress converting 
an agency-head appointed Inspector General into a Presidential 
appointee: this was done at the Federal Deposit Insurance Corporation 
and the Tennessee Valley Authority. The TVA Inspector General became a 
Presidential appointment as a result of the TVA Board trying to 
interfere with the independence of the Inspector General, resulting in 
a GAO investigation requested by then Senator Fred Thompson. The 
situation faced by the TVA Inspector General is not unlike the 
situation I am facing today. In my opinion, H.R. 6101 is an 
appropriate, balanced, and thoughtful proposal to enhance Inspector 
General independence that will make LSC more transparent and 
accountable to Congress and the public.
    There is also precedent for requiring a super-majority to remove an 
Inspector General. In 1996, Congress created an Inspector General at 
the United States Postal Service who would no longer report to the 
Postmaster General but instead report to the nine Presidentially-
appointed Governors who, along with the Postmaster General and the 
Deputy Postmaster General, comprise the Board of Governors. The Postal 
Service opposed the creation of an independent Inspector General who 
was not appointed by the Postmaster General. Congress, clearly 
concerned about having an Inspector General removed by a simple 
majority of a part-time Board, enacted 39 U.S.C. Sec. 202(e)(3) stating 
that removal of the Inspector General required written concurrence of 
at least 7 of the 9 Governors. By requiring a super-majority, Congress 
implicitly recognized that, like at LSC, the Board could be unduly 
influenced by management and thereby helped balance that influence. 
This was the compromise struck between Congress and the Postal Service 
in lieu of establishing a Presidentially-appointed Inspector General.
    Finally there are some additional reasons why H.R. 6101 is needed 
at LSC more so than at other agencies. At LSC it is not unusual for 
Board members and LSC senior managers to have close ties from working 
together outside LSC in the private legal services sector. These kinds 
of close relationships among LSC Board members and LSC managers and 
employees and LSC grantees and related organizations are part of the 
LSC culture and could be one of the reasons why the Inspector General 
role is not as well understood as it should be and why it is important 
to have an independent Inspector General.

                               CONCLUSION

    Mr. Chairman, thank you for this opportunity to testify before the 
Subcommittee. I remain proud of the work being done by my staff which 
has been operating under difficult circumstances. I appreciate the 
support you and your staff have shown both for the work we have done 
and for the need to ensure that LSC's Inspector General can operate as 
Congress intended so that you, the Board and the public can be informed 
by our reports and ultimately LSC can be improved for the benefit of 
LSC, its client community and the taxpayer public. I also would be 
remiss in not extending my appreciation to those new members of the 
Board who have been supportive of my office. As someone who respects 
and values the work of lawyers who serve the poor, and as someone who 
spent his first working years in the Cabrini Green public housing 
project and other inner-city slums, I can tell you that I have only the 
best interests of the poor at heart every day when I go to work. I look 
forward to ensuring that the poor will have our support by continuing 
to conduct independent and objective reviews so the LSC Board, 
Congress, and the public can be assured that LSC is being operated 
lawfully, efficiently, economically, and with integrity.

    Mr. Cannon. Thank you, Mr. West.
    Mr. Williams.

   STATEMENT OF DAVID C. WILLIAMS, INSPECTOR GENERAL, LEGAL 
                      SERVICES CORPORATION

    Mr. Williams. Mr. Chairman, Mr. Watt, and Members of the 
Subcommittee. I appreciate the opportunity to appear today to 
discuss the importance of Inspector General being able to speak 
independently about problems and concerns with an agency 
without fear of intimidation or retaliation.
    I began my Government career with the U.S. Army in Vietnam 
and then as a Special Agent with the U.S. Secret Service. I was 
later an investigator and manager at the Department of Labor's 
Office of Inspector General for a total of 15 years. Since then 
I have served as an Inspector General for a total of 15 years, 
beginning with the U.S. Nuclear Regulatory Commission in 1989. 
I have also served as the Inspector General for the Social 
Security Administration, the Department of Treasury, the IRS 
and as the Acting Inspector General for HUD. I have been the 
Inspector General for the U.S. Postal Service since 2003.
    In all of my assignments as the IG, a key element of being 
effective has been the ability to provide the agency's 
management, Congress and the public with independent reports 
concerning employee misconduct, agency programs and operation. 
Inspector Generals were established following the congressional 
investigations in 1974 to protect the public from Government 
abuse, waste and misconduct. An Inspector General must be able 
to speak honestly, without fear of retaliation or intimidation 
from anyone.
    Anything less would have a chilling effect on the ability 
of Government investigators to do their jobs, and neither 
Congress nor the public would receive the full benefit of frank 
and truthful findings.
    When instances of retaliation do occur, you must take 
action immediately to address it. Early in my period of 
Inspector General appointment at the Nuclear Regulatory 
Commission, Congress and the NRC commission asked me to conduct 
a high level internal investigation. The investigation 
concerned allegations about the executive director who at the 
time was being considered for a presidential appointment at the 
Department of Energy.
    At the conclusion of the investigation, the executive 
director stepped down from his position. I also led an 
investigation of the President of the International Board of 
Teamsters while at the Labor Department. That individual 
complained to the Labor Secretary and the White House, but was 
ultimately indicted.
    I have investigated a number of other senior executives who 
often possessed substantial what I call clout and had 
influential friends. These investigations could not have been 
successful without the independence provided without the IG 
Act. The independence of Inspectors General is ensured by the 
IG Act's requirement that the President or the agency's 
governing entity appoint them. Congress further mandates that 
the agency not prevent or prohibit the Inspector General from 
initiating, carrying out or completing an audit or an 
investigation.
    The Postal Service Reorganization Act additionally protects 
my independence as IG for the Postal Service. The statute 
provides that the Postal Service IG may only be removed for 
cause and only with the concurrence of seven of the nine 
governors appointed by the President and confirmed by the 
Senate. This provision ensured that management cannot remove me 
for reporting information, for reporting information that they 
do not want me to report.
    In conclusion, it is of paramount importance to me and to 
all Inspectors General that our independence be protected so 
that the work the Administration and the public expect can be 
performed under the IG Act.
    While this independence is legislated in the IG Act, I have 
always strongly believed that Congress and the Administration 
can be relied upon to enforce the rule of law.
    If it is clear that independence is being compromised and 
if Congress fails to act decisively, there will be little or no 
honest reporting, and that is not what the Government and the 
public deserve. Thank you.
    [The prepared statement of Mr. Williams follows:]

                Prepared Statement of David C. Williams

    Mr. Chairman and members of the Subcommittee, I appreciate the 
opportunity to appear today to discuss the importance of Inspectors 
General being able to speak independently about problems and concerns 
with an agency without fear of intimidation or retaliation.
    I began my government career with the U.S. Army in Vietnam and then 
became a special agent with the U.S. Secret Service. I was later an 
investigator and manager at the Department of Labor's Office of 
Inspector General and worked at GAO. Since then I have served as an 
Inspector General for a total of 15 years, beginning at the U.S. 
Nuclear Regulatory Commission in 1989. I have also served as the 
Inspector General for the Social Security Administration, the 
Department of the Treasury, and the IRS, and as the Acting Inspector 
General for HUD. I have been the Inspector General for the U.S. Postal 
Service since 2003.
    In all of my assignments as an Inspector General, a key element of 
being effective has been the ability to provide the agency's 
management, Congress, and the public with independent reports 
concerning employee misconduct and agency programs and operations. 
Inspectors General were established following Congressional 
investigations in 1974 to protect the public from government abuse, 
waste, and misconduct. An Inspector General must be able to speak 
honestly without fear of retaliation or intimidation from anyone. 
Anything less would have a chilling effect on the ability of government 
investigators to do their jobs and neither Congress nor the public 
would receive the full benefit of frank and truthful findings. When 
instances of retaliation do occur, we must take action immediately to 
address it.
    Early in my first Inspector General appointment at the Nuclear 
Regulatory Commission (NRC), Congress and the NRC commissioners asked 
me to conduct a high-level internal investigation. This investigation 
concerned allegations about the executive director, who at the time, 
was being considered for a presidential appointment in the Department 
of Energy. At the conclusion of the investigation, the executive 
director stepped down from his position. I also led an investigation of 
the President of the International Brotherhood of Teamsters while at 
the Labor Department. That individual complained to the Labor Secretary 
and White House, but was ultimately indicted. I have investigated a 
number of other senior executives who often possessed substantial 
political clout and had influential friends. These investigations could 
not have been successful without the independence provided by the IG 
Act.
    The independence of Inspectors General is ensured by the IG Act's 
requirement that the President or the agency's governing entity appoint 
them. Congress further mandates that the agency not prevent or prohibit 
the Inspector General from initiating, carrying out, or completing any 
audit or investigation.
    The Postal Reorganization Act additionally protects my independence 
as the Inspector General of the Postal Service. This statute provides 
that the Postal Service IG may only be removed for cause, and only with 
the concurrence of seven of the nine Governors appointed by the 
President and confirmed by the Senate. This provision ensures that 
management cannot remove me for reporting information they do not want 
to hear.
    In conclusion, it is of paramount importance to me and to all 
Inspectors General that our independence be protected so that the work 
the Administration and the public expect can be performed under the IG 
Act. While this independence is legislated in the IG Act, I have always 
strongly believed that the Congress and the Administration can be 
relied upon to enforce the rule of law. If it is clear that 
independence is being compromised and Congress fails to act decisively, 
there will be little or no honest reporting and that is not what the 
government and the public deserve.

    Mr. Cannon. Thank you, Mr. Williams.
    Mr. Strickland, you are recognized for 5 minutes.

          STATEMENT OF FRANK STRICKLAND, CHAIRMAN OF 
             THE BOARD, LEGAL SERVICES CORPORATION

    Mr. Strickland. Thank you, Mr. Chairman and Ranking Member 
Watt and Members of the Subcommittee. I am pleased to be here 
today to testify before you with respect to H.R. 6101, 
legislation that would require 9 of the 11 members of the Board 
of Directors of the Legal Services Corporation to agree in 
writing in order to discharge the corporation of the Inspector 
General. Accompanying me today are Professor Lillian Bevier, 
the Board's Vice Chairman and a distinguished Professor of Law 
at the University of Virginia, and Michael D. McKay, the 
Chairman of the Board's Finance committee. Mr. McKay is a 
partner in the law firm of McKay Chadwell in Seattle and a 
former U.S. Attorney for the Western District of Washington.
    Both of them have traveled considerable distances today to 
indicate the Board's serious interest in the matters before the 
Committee today. And we thank you for accommodating our 
schedules so that we can be here today.
    For my part, I have been in the private practice of law in 
private practice in Georgia in law firms ranging from 4 to 100 
lawyers. I'm a past President of the Atlanta Bar Association. I 
have also served 11 years as a member of the Board of Directors 
of Georgia Legal Services and the Atlanta Legal Aid Society.
    The Federal Legal Services program is often 
mischaracterized by some conservatives as being a liberal tool. 
I could not disagree more. This is a fundamentally conservative 
program. It is about giving poor people an equal shot to 
justice in our judicial system on civil matters. The leading 
early proponent of creating a system was Justice Lewis Powell. 
One of the original sponsors of creating LSC was the late 
Congressman John Erlenborn, who served as the most recent 
previous President of LSC.
    Supporters of LSC over the years have included a 
conservative Republican Senator, Warren Rudman, John Danforth, 
and Pete Domenici and Members of the House such as Bill 
Livingston and Frank Wolf.
    Mr. Chairman, with due respect and understanding that we 
are discussing a bill that you introduced, the LSC board cannot 
support H.R. 6101 or its predecessor, H.R. 5974. The Congress 
created 57 Inspectors Generals by statute. All of the IGs with 
the exception only of the IG of the Postal Service, to our 
knowledge, serve at the pleasure of either the President or the 
head of the agency, depending on who appointed him or her 
initially.
    When the head of the agency is a multi-person body, such as 
the LSC Board of Directors, the decision to appoint or 
discharge the IG is made pursuant to the rules of the agency. 
In every other instance where the head of the agency is a 
multi-person body, it is my understanding that only a majority 
vote is required.
    The LSC Board of Directors operates on a majority vote 
based on all matters pending before it except that under the 
statutory language in the LSC Act it takes 7 votes of the Board 
to remove a director for malfeasance. While our Board at full 
strength has 11 directors, during my 3\1/2\ years as chairman 
at most times there have been one or two vacancies. The Board 
presently only has 10 members. Thus, the effect of H.R. 6101 
would be able to require actual or virtual unanimity with 
respect to the removal of the LSC IG no matter what the cause.
    It takes only one-half of the House and two-thirds of the 
Senate to remove the President of the United States. We think 
it noteworthy that only the LSC IG would be affected by H.R. 
6101. We have been unable to discern a rationale, and none has 
been offered for singling out the LSC for such extraordinary 
treatment. My colleagues on the Board and I, all of whom were 
nominated by President Bush and who were confirmed by the 
Senate, have worked diligently and in complete good faith on 
all matters coming before us, including our relationship with 
the IG.
    Indeed, Professor Bevier and I have made several trips to 
Washington to personally meet with LSC management and the IG to 
work on communications issues and to improve the relationship 
between the two. We expect and pledge to continue to work on 
this relationship.
    As we are the Board that appointed the incumbent IG, we 
have every interest in his successful tenure, but precisely 
because we are the Board that appointed this IG we think it 
would be quite unwise to legislate the unusual and 
extraordinary job protections that H.R. 6101 provides.
    While the Board is not permitted to interfere in actions 
taken by the IG, and I should emphasize that we in no case 
would do so, the IG is under our general supervision as we 
constitute the head of the agency. The power to supervise 
presumes the power to remove. While I have spent my career in 
the private sector and never dealt with an IG before I took 
this position, I believe this must be why Congress did not 
provide the kind of job protection for any IG that H.R. 6101 
would create for LSC.
    I would like to touch briefly on two other points.
    First, the LSC IG has in the past year asserted that the 
Board should not engage in a review of his performance. The 
power to remove the IG, whether or not with the supervisor 
majority as 6101 would provide, presumes the authority to 
review his performance. Absent a performance review, on what 
basis would we decide whether to retain or discharge him.
    Moreover, the Office of Management and Budget on November 
13, 1992 issued a memorandum to the heads of designated Federal 
entities regarding their relationship with IGs. The memorandum 
provides specifically that the general supervision provision in 
the Inspector General Act includes, quote, conducting the 
annual performance review of the IG, end quote.
    After our IG made the argument that we should not conduct a 
performance review of him, we sought outside legal counsel from 
Thomas Williamson, Jr., a former deputy IG at the Department of 
Energy. His legal memorandum states in no uncertain terms that 
we not only have the authority to review the IG's performance 
but also the obligation to do so. We would continue to be under 
such an obligation even if H.R. 6101 were to pass.
    Second, there have been some suggestions that the Board 
should not review the IG's performance because he has been, at 
the request of Members of Congress, investigating certain 
allegations, some of which pertain to the Board.
    The Board discussed undertaking a performance review of the 
IG's performance in 2005, months before the March 2006 
investigation commenced. That discussion predated the 
investigation and is in no way related to it. According to the 
report issued by the IG yesterday, the IG found that the Board 
had done nothing improper and much less illegal. That 
investigation has no bearing on the Board's responsibility to 
conduct a performance review.
    I would be happy to answer any questions.
    [The prepared statement of Mr. Strickland follows:]

               Prepared Statement of Frank B. Strickland

    Mr. Chairman, Representative Watt and Members of the Subcommittee, 
I am pleased to be here today to testify before you with respect to 
H.R. 6101, legislation that would require nine of the eleven members of 
the Board of Directors of the Legal Services Corporation to agree in 
writing in order to discharge the Corporation's Inspector General. 
Accompanying me today are Professor Lillian Bevier, the Board's Vice 
Chairman and a distinguished Professor of Law at the University of 
Virginia, and Michael D. McKay, the Chairman of the Board's Finance 
Committee. Mr. McKay is a partner in the law firm of McKay Chadwell in 
Seattle and a former U.S. Attorney for the Western District of 
Washington. Thank you for accommodating our schedule so that we can be 
here today.
    For my part, I have been in the private practice of law in Atlanta, 
Georgia for forty years in law firms ranging in size from four to 
twelve hundred lawyers. I am a past President of the Atlanta Bar 
Association and was outside General Counsel to the Georgia Republican 
Party for many years and continue to represent Republican Party 
interests in the state, most recently filing an amicus brief on behalf 
of the Georgia legislative leadership supporting the State of Texas on 
its 2003 redistricting plan. While one piece of their plan was 
overturned and remanded, I would note that on the issues of concern to 
the Georgia legislature, we prevailed. I also served eleven years as a 
member of the Board of Directors of Georgia Legal Services and the 
Atlanta Legal Aid Society.
    The federal legal services program is often mischaracterized by 
some conservatives as being a liberal tool. I could not disagree more. 
This is a fundamentally conservative program. It is about giving poor 
people a shot at equal access to justice in our judicial system on 
civil matters. The leading early proponent of creating the Legal 
Services Corporation was Justice Lewis Powell. One of the original 
sponsors of creating LSC was Congressman John Erlenborn, who served as 
the most recent previous President of LSC. Supporters of LSC over the 
years have included conservative Republicans such as Warren Rudman, 
John Danforth and Pete Domenici, and Members of the House such as Bill 
Livingston and Frank Wolf. I will stop there for fear of leaving people 
out.
    Mr. Chairman, with due respect and understanding that we are 
discussing a bill you introduced, the LSC Board cannot support either 
H.R. 6101 or its predecessor bill, H.R. 5974. The Congress created 57 
Inspectors General by statute. All of the IG's, with the exception only 
of the IG of the Postal Service, serve at the pleasure of either the 
President or the head of the agency, depending on who appointed him or 
her initially. When the head of the agency is a multi-person body, as 
is the LSC Board of Directors, the decision to appoint or discharge the 
IG is made pursuant to the rules of the entity. In every other instance 
where the head of the agency is a multi-person body, it is my 
understanding that only a majority vote is required.
    The LSC Board of Directors operates on a majority vote basis on all 
matters pending before it (except that it takes seven votes to remove a 
Director for malfeasance). While our Board at full strength has eleven 
directors, during my three and one-half years as Chairman, there have 
at most times been one or two vacancies The Board presently has only 
ten members. Thus, the effect of H.R. 6101 would be to require actual 
or virtual unanimity with respect to the removal of the LSC IG no 
matter what the cause. This is highly unusual to say the least. It 
takes only one-half of the House and two-thirds of the Senate to remove 
the President of the United States.
    We think it noteworthy that only the LSC IG would be affected by 
H.R. 6101. We have been unable to discern a rationale--and none has 
been offered--for singling out the LSC IG for such extraordinary 
treatment. My colleagues on the Board and I, all of whom were nominated 
by President Bush and unanimously confirmed by the Senate, have worked 
diligently in complete good faith on all matters coming before us, 
including our relationship with the IG. Indeed, Professor Bevier and I 
have made several trips to Washington to personally meet with LSC 
management and the IG to work on communication issues and the 
relationship between the two. We expect and pledge to continue to work 
on this. As we are the Board that appointed the incumbent IG, we have 
every interest in his successful tenure. But precisely because we are 
the Board that appointed this IG, we think it would be quite unwise to 
legislate the unusual and extraordinary job protection that H.R. 6101 
provides.
    While the Board is of course not permitted to interfere in 
investigations undertaken by the IG--and I should emphasize that we 
would in no case do so--the IG is under our general supervision, as we 
constitute the head of the agency. The power to supervise presumes the 
power to remove. While I have spent my career in the private sector and 
never dealt with an IG before I took this position, I believe this must 
be why Congress did not provide the kind of job protection for any IG 
that H.R. 6101 would create for LSC's.
    I would like to briefly touch on two other points. First, the LSC 
IG has in the last year been asserting that the Board should not engage 
in a review of his performance. The power to remove the IG-whether or 
not with a super-majority such as H.R. 6101 would require--presumes the 
authority to review his performance. Absent a performance review, on 
what basis would we decide whether to retain or discharge him? 
Moreover, the Office of Management and Budget, on November 13, 1992, 
issued a memorandum to the heads of designated federal entities 
regarding their relationship with their IGs. The memorandum provides 
specifically that the ``general supervision'' provision on the 
Inspector General Act includes ``conducting the annual performance 
evaluation of the IG.'' After our IG made the argument that we should 
not conduct a performance review of him, we sought outside legal 
counsel from Thomas S. Williamson Jr., a partner at Covington & Burling 
and a former Deputy IG of the Department of Energy. His legal 
memorandum to us states in no uncertain terms that we not only have the 
authority to review the IG's performance, but also the obligation to do 
so. We would continue to be under such an obligation even if H.R. 6101 
were to pass.
    Second, there have been some suggestions that the Board should not 
review the IG's performance because he has been, at the request of some 
Members of Congress, investigating certain allegations, some of which 
pertain to the Board. The Board discussed undertaking a performance 
review of the IG's performance in 2005, months before the March 2006 
investigation commenced; that discussion predated the investigation and 
is in no way related to it. According to the report issued by the IG 
yesterday, the IG found that the Board had done nothing improper, much 
less illegal. That investigation has no bearing on the Board's 
responsibility to conduct a performance review.
    I would be happy to answer any questions.

    Mr. Cannon. Thank you, Mr. Strickland.
    Ask unanimous consent to add Ed Quatrevaux's letter into 
the record. Hearing no objection, so ordered.
    Mr. Watt. Let me reserve the right to object. This is just 
his opinion.
    I withdraw my objection.
    Mr. Cannon. The objection is withdrawn, so ordered.
    Mr. West, based on your 20 years, actually 20 plus years, 
in the Inspector General service, have you ever encountered 
such efforts to stifle independence as you have received at 
LSC?
    Mr. West. I have not encountered such efforts. When I first 
started at the Department of Labor in 1986 in the IG's office, 
I heard the stories about the early days of where they were 
trying to keep the IGs from having access to documents, access 
to people, but I did not encounter that when I was there, that 
the IG concept had become premature. The same thing when I went 
to the CIA. They had independent IG statutory for a number of 
years and the agency had gotten used to the IG and the same 
thing with the Postal Service, with a couple of bumps because 
it was a relatively new IG, but the language that Congress put 
in giving the IG this extra job security was to enable the IG 
to start Congress doing its job.
    So when I thought I was coming to Legal Services 
Corporation that had an IG for 16 years, I was expecting smooth 
sailing and I have run into a lot of obstacles in terms of 
access to records, took a lot of criticism of reports, trying 
to tell me what should be in reports. I didn't put a document 
in here. I should have said something differently, and I never 
experienced that before.
    Mr. Cannon. Ed Quatrevaux was with LSC 15 years ago or so 
and--have you talked to him about these things? Has he 
expressed the problems and can you see a thread that draws 
these kind of problems together that he has referenced?
    Mr. West. I have not talked to Ed personally. I have 
actually read his files, though. I have read his files where 
his notes to files regarding trying to curtail communications 
with Congress, criticizing his communications with Congress, 
the attempt to use a performance appraisal to get him to back 
off from some of the projects he was taking on. And my seniors, 
two of my senior staff members worked for both Ed and me and 
they can tell you if you can remember the movie Ground Hog Day, 
they feel like they wake up and it's 10 years ago.
    Mr. Cannon. I'll talk to Mr. Strickland a little later 
about this, but you suggested that presidential impeachment 
where you need a majority in the House and two-thirds in the 
Senate is a lower bar than having nine members of a Board to 
have you dismissed. That seems to me to be extraordinary 
because of the nature of the focus of the public and the number 
of people involved in impeachment.
    But in the case of a Board, what seems to me here is that 
you have this consistent opposition to a person who exists in 
what should be an aid to, what is described as a volunteer 
Board, so these people don't come in here with the history of 
the organization, they don't come in with bylaws that they 
insist on happening. They join the organization that has 
ongoing rules, regulations and legislation to guide this 
activity and yet there are many lawyers working with or for--or 
under contract through the agency who seem to be sending 
signals back up about what they'd like and why the Board should 
like that.
    And am I missing this or has this always been the problem 
with Mr. Quatrevaux and others from the beginning, that there 
is this tension of what the Board gets in its head to do in its 
inexperienced nonprofessional context and what the rules and 
the regulations set forth.
    Mr. West. I don't think you are missing anything, Mr. 
Chairman. I think one of the other problems is that the LSC by 
virtue of being a D.C. nonprofit corporation is really isolated 
from the mainstream Federal Government. I don't have--they 
don't have a cadre of senior executives like the other agencies 
do. Say in another agency a new secretary comes in or new 
administrator and they may get all bent out of shape about an 
IG report. They have their senior executives telling them we 
have been through this, we understand what's going on. And it's 
okay. LSC doesn't have any kind of continuity like that. There 
are only two senior officers of the corporation who have been--
remained around from the early days and with some of the 
information that has been submitted to you, as a result of your 
investigation, you may notice that both of those officers were 
instructed by the LSC President not to directly be in contact 
with the Board. So the Board didn't even have the advice of 
their counsel.
    And the report I submitted to you yesterday, the controller 
who was trying to enforce the travel contract that LSC has with 
the General Services Administration was not permitted to 
discuss the issue with the Chairman. So the Chairman did not 
receive information from the person who had the history and 
that kind of information.
    So there is a definite problem with the Board getting the 
kinds of information they need.
    Mr. Cannon. My time has expired.
    Mr. Watt, the gentleman is recognized for 5 minutes.
    Mr. Watt. I guess I am having a little trouble 
understanding how this bill would address that last point you 
made there, Mr. West.
    You are saying there was lack of communication between who 
and the Board?
    Mr. West. The senior officers, the general counsel.
    Mr. Watt. Why was there lack of communication?
    Mr. West. Because the President of the corporation issued 
directions that nobody was--neither the treasurer nor the 
general counsel were to be in--directly in contact with the 
Board, that all communications with the Board had to go through 
her, notwithstanding the fact that they are officers of the 
corporation.
    Mr. Watt. And when the Board found out about that, would 
they have the authority to tell the Director that that is--that 
was something that they did not want or want?
    Mr. West. That has eventually changed in the last few 
months, but it went on for some period of time and there was an 
indication----
    Mr. Watt. And we are here in legislation stating about 
something that has changed that the bill wouldn't have any 
impact anyway? Is that--I don't--Mr. Chairman, I am feeling 
very frustrated here because I actually think we are doing a 
disservice to Mr. West and Mr. Strickland and the Legal 
Services Corporation by making what--making something that is 
delicate already worse. Mr. West being here appears to me to 
be, and I am sure it is not his fault, very self-serving. The 
Board being here to testify about this bill seems to me to be 
very self-serving. And so nobody wins here. We are not getting 
any independent evaluation of whether this is a good bill or 
not from independent sources.
    I appreciate Mr. Williams being here. You may be the only 
independent person in here on this, but we can't make public 
policy because of some personal personality dispute between an 
IG and a corporation.
    And I think, I mean, I have been about at this point for a 
long time behind the scenes, but I think now we are at this 
point in front of the public view that this has just 
deteriorated into a petty squabble that probably nobody is 
completely right in or completely wrong in.
    Mr. Cannon. Would the gentleman yield?
    Mr. Watt. Not to mention the staffs of our Committees, 
which is what is beginning to irritate me substantially. You 
know, we sit in a room and talk about this stuff and we think 
we have it worked out and then everything that we think we have 
worked out gets undermined by some staff person who's got their 
own personal agenda at work. And now we are out playing it out 
in public as if we are the knights in shining armor to go and 
save this institution from itself.
    These people were appointed by the President of the United 
States. They have responsibilities. They are all lawyers. They 
know how to distinguish between talking to Mr. West and making 
an evaluation of his performance, and the criteria that he is 
supposed to perform on and interfering in inappropriately with 
the work that he is doing. We make those judgements every day 
as Members of the Congress. Otherwise, I couldn't ever go up to 
the Intelligence Committee. I am a Member of Congress. I am 
communicating with my constituents every day and there are some 
things I can't tell him because I read it up in the 
Intelligence Committee.
    I can make those distinctions, and I think this Board can 
make those distinctions, and we are doing this corporation and 
Mr. West and everybody a disservice, I think, having a hearing 
that relegates this into some petty dispute and makes us all 
look bad, in my opinion.
    Now I am happy to yield to the Chairman.
    Mr. Cannon. The gentleman's time has expired.
    Mr. Watt. I ask unanimous consent for 1 minute and I will 
yield it to the Chairman so he can say what he wanted to say 
when he tried to interrupt me and when I got up on my soap box.
    Mr. Cannon. If I knew you were getting on your soap box and 
going on a roll, I wouldn't have asked for time. Thank you for 
the 1 minute.
    Let's go to a second round if that is okay. And so I'll 
recognize myself for 5 minutes.
    Oh, I am sorry. We do have Mr. Franks here. And that means 
I probably need to accept your motion or your unanimous 
consent. And so I have 1 minute to respond.
    There are a couple of things that are disconcerting to me 
that you talked about, the first being that this is a Board 
that is being run by people who are professionals. Having 
served on a Board and watched what has happened with Boards and 
the fall out that we have had at major corporations, recently 
including Hewlett Packard, odd problems subject to the mind 
that members of the Board should be saying to themselves I have 
a fiduciary position and I need some help. In fact, I might 
just ask Mr. Strickland, is it true that Ms. Barnett told the 
treasurer or the general counsel not to talk to members of the 
Board?
    Mr. Strickland. The way Ms. Barnett has organized the 
operation, we have a chief administrative officer. And the 
treasurer reports to the chief administrative officer. When 
they make presentations to the Board, when they, the chief 
administrative officer and the treasurer make presentations to 
the Board, they do so jointly. So the Board has access to the 
treasurer.
    Mr. Cannon. Has she said to any officers at LSC that they 
shouldn't talk to Board members?
    Mr. Strickland. I don't know.
    Mr. Cannon. Well, then we will leave it at that. But let me 
say that is appalling to me. I don't know how anybody could be 
on a Board who doesn't feel like he had the opportunity to walk 
into any employee's office, anybody's office and----
    Mr. Watt. Can I reclaim my time? It might be appalling to 
you, Mr. Chairman, but that is a level of micromanagement that 
I think is not befitting this institution, the Board or this 
Congress and, you know, if we start micromanaging at this 
level, it is appalling to me.
    Mr. Cannon. I think the gentleman is correct that any Board 
member who goes in to a secretary and looked over his shoulder 
while he is typing is probably an idiot. Unless there is 
something for that.
    Mr. Watt. That is not what I am talking about. I am talking 
about us looking over the shoulder of the Board of--you know, 
hey, I wouldn't any more condone the Board going in and looking 
over the shoulder of a secretary than I would condone the 
Members of Congress going in and looking over the shoulder of 
the Board.
    This Board has responsibilities. It has not violated those 
responsibilities that has been able to decipher. It has not 
violated those responsibilities even so near as the reports 
that Mr. West has submitted to us. And yet because we don't 
like lawyers or we don't like the Legal Services Corporation, 
we are out there micromanaging the business of this Board in a 
way that I think is inappropriate.
    Mr. Cannon. Will the gentleman yield?
    Mr. Watt. Yes, I will, and I will ask for another minute so 
you can respond to that.
    Mr. Cannon. The point the gentleman is making is very, very 
important. The point is that we should not be micromanaging 
Legal Services Corporation and no Board member should go look 
over the secretary's shoulder. That said, if a Board member 
doesn't have the ability to look over a secretary's shoulder, 
if he doesn't have the ability to get to books, if he doesn't 
have the ability to look at whatever information he feels is 
important so that his corporation or in this case this Legal 
Services Corporation can operate in a reasonable fashion; that 
is, if he can't take on the responsibility that he actually 
holds to effectively perform his duties, then he is not going 
to work very well.
    We don't have shareholders of LSC. We have taxpayers and 
our role is to make sure the Board is performing its function. 
We have had very serious discussions about what we are going to 
do with the building that you have purchased or worked with 
Friends of Legal Services to purchase. We have some fundamental 
problems here where I think there is a true breakdown of 
understanding by Board members, and I think this was the deal 
you were talking about, Mr. Watt. There are some--I believe 
that what I see here are members of the Board who are getting 
the perks of an operation who are being directed by staff but 
who are not using the Inspector General for the purpose that he 
exists, which is to protect the Board from allegations of 
impropriety or for overseeing an operation that there is 
impropriety going on.
    That is what I think this hearing is about. It is oversight 
of those things, and the issue about the reports that the 
Inspector General, Mr. West, has issued are not so much on 
point. It is the reaction of the Board to those reports that I 
think is significant here.
    Mr. Watt. Mr. Chairman, I yield back the balance of think 
time if I have any.
    Mr. Cannon. The gentlemen yields back. I doubt he has any. 
But the Chair appreciates his indulgence and the Chair 
recognizes the gentleman from Arizona for 5 minutes.
    Mr. Franks. Mr. Chairman, I am learning a great deal here. 
Could you entertain--could I yield additional time to you, sir?
    Mr. Cannon. I have a number of other questions if you don't 
have any.
    Mr. Franks. I would be glad to yield.
    Mr. Cannon. I'll take your time and probably my time again.
    We have distracted somewhat Mr. West.
    Mr. Williams, you have heard the discussions between the 
Ranking Member and me. Do you have comments on the issue?
    Mr. Williams. Broadly speaking, the job of the Inspector 
General is a difficult one. I've investigated the heads of most 
of the departments and agencies that I have been a member of. 
With regard to Boards, they are normally evenly split. And it 
isn't unusual to vote along partisan lines. So a super majority 
is something that I take comfort in. And many times in the 
investigations that I conduct, members of the commission and 
now the Board are a party in interest and sometimes they are 
even the subject of the investigation.
    I think people have a natural tendency to want to tell the 
truth, but they ought not to have to choose between telling the 
truth and feeding their families.
    What seems to have occurred here, the timing between the 
investigation and discussions regarding firing Mr. West are 
very instructive and very damning and very serious. And I 
consider this a very serious matter, and I think that any 
provision that will provide levels of security for Mr. West and 
speaking the truth to powerful figures is welcome and is 
needed.
    Mr. Cannon. So what you are saying as opposed to what Mr. 
Watt is saying is that this is an important investigation and 
needs--or this bill and what we are doing here is not 
micromanaging but creating a context that makes sense?
    Mr. Williams. I think if you don't protect people speaking 
the truth, there are going to be a lot of people that won't 
tell you the truth. This was done at your request, I 
understand. It is the duty of the Committee to join in an 
effort to make sure that retaliation doesn't occur. In the case 
of TVA and HUD and other instances where this sort of thing 
occurred, legislation followed and strong Congressional action 
followed, and I think it is appropriate in this instance as 
well if this is what it looks like.
    Mr. Cannon. Mr. West.
    Mr. West. Well, I would like to follow up with one example 
of, I think, sort of what is going on and again, as I said, I 
am trying to keep this off any kind of, you know, personal 
dispute or whatever. But back a year and a half ago your 
Subcommittee asked me to look into the lease and I issued a 
report, as you noted in your comments, Mr. Chairman, that the--
my lease report was rejected subsequently to that. Your 
Subcommittee held an independent hearing, arrived at basically 
the same conclusions that I did regarding the building in the 
House appropriations.
    Mr. Cannon. In fairness, there was no testimony that 
contradicted your position. The amazing thing was that having 
said that, it all turned on whether or not there was a conflict 
of interest. Someone I believe on the Board of LSC resigned 
because of the obvious conflict of interest. Others wanted to 
pretend the conflict didn't exist. We bent over backwards to 
try to construct a context where that would be straightened 
out, and I think we are of one mind on that issue. And yet we 
are here without that fundamental conflict having been resolved 
and we created I think the--I think we bent over backward to 
create a context where we could solve that problem about using 
those and others.
    Mr. West. I had the privilege of, you know, or happened to 
look and be able to read some closed transcripts of the Board's 
performance review of me which, by the way, I am entitled to 
under the law. So it--I got them in the course of investigation 
by--I am also entitled to them on a case involving the firing 
of the first LSC IG back in 1991, I believe.
    And what I found was that there is still disagreement over 
my issuing this report on the lease, notwithstanding the fact 
that the House, in the House report on appropriations, which 
was adopted by the conference report in which the conferees 
told the LSC that they needed to negotiate a more reasonable 
rent rate and try to lessen the amount of space they need.
    So I'm sort of in a situation where I provided a report to 
the Congress. I believe I did, on my professional standards 
using independent outside appraisers who were referred to me by 
the General Services Administration and the facilities 
department Postal Service, I issued the report. Congress agreed 
with me. And I hear from the Board that my performance is bad 
because they disagree with how this lease report was issued.
    I then find that I have been criticized because I didn't 
respond to why a particular appraisal--lender's appraisal--was 
included as part of my lease report. I hadn't seen it. I was 
told you didn't respond to our concerns, and I issued two 
reports regarding why I didn't consider it relevant.
    And I don't know what to say when I am being criticized for 
things that I in fact have done, that I have been told that I 
haven't done, and I have done it. I have done things that 
Congress has agreed with and the Board tends to still disagree 
with my findings as well as Congress' findings.
    Mr. Cannon. The time of the gentleman from Arizona has 
expired.
    The gentleman recognizes himself for 5 minutes. Maybe this 
is a good time to shift to Mr. Strickland. You have heard the 
discussion here about whether this is relevant or important or 
micromanaging. And yet you are the chairman. You are concerned 
about your reputation. I know this is a matter of great 
importance to you. We have talked about the difficulties that 
the building represents.
    Do you recognize the problem of a Board that rejects a 
general counsel--an inspector general, instead of using that 
inspector general to help protect the Board, its chairman and 
members and their reputations?
    Mr. Strickland. It is correct that the Board disagreed with 
the findings in that report. By way of follow-up to that, Mr. 
Chairman, we have taken two approaches to resolve that problem. 
One is----
    Mr. Cannon. Mr. Strickland, would you mind focusing on the 
question, which is, as the chairman of the Board, aren't you 
concerned that you have someone who really is independent on 
the outside, who acts as an agent to protect you and your 
reputation and the reputation of the Board?
    Mr. Strickland. We appreciate the role of the inspector 
general and we are working very hard to gain a better 
understanding of the proper role of an IG. As I said a moment 
ago in my opening statement, none of us came to the Board with 
any experience with the inspector generals. It is a foreign 
concept to us.
    Mr. Cannon. Have you served on boards of corporations?
    Mr. Strickland. No publicly traded corporations, no, sir. 
Nonprofits.
    Mr. Cannon. Have any of your members that you know of 
served on boards of publicly traded corporations?
    Mr. Strickland. Not to my knowledge.
    Mr. Cannon. Well, I certainly hope to the degree you have 
input, and we certainly will take the initiative to bring 
people on the Board--actually, I do know Tom Fuentes is on the 
board of at least one--a publishing company.
    Mr. Strickland. That is correct. I don't know that that is 
public, but he is on that board.
    Mr. Cannon. That is not a public corporation, I don't 
think. Mr. Strickland, what I think we need here is a 
recognition of the role of a Board member in the context of the 
terrific legal responsibilities and burdens that come with 
being on a Board. Now, that is a little different when you are 
on a public board with funding--taxpayer funding. But I think 
that makes our role overseeing it a little more poignant than 
perhaps other activities. But you know, do you have lawyers on 
the Board who are corporate lawyers?
    Mr. Strickland. Yes.
    Mr. Cannon. And who serve as general counsels for public or 
nonpublic----
    Mr. Strickland. I presume they do provide general counsel 
advice, yes. And I do myself for some clients.
    Mr. Cannon. I apologize. I interrupted you and you had 
something else to say.
    Mr. Strickland. I was going to say with respect to the 
lease, it is true we had a disagreement with the lease report. 
It is also true, I think, that I don't know anyone in the room 
would say inspectors general are infallible. So I think it is 
our responsibility to speak up if we have a disagreement, and 
we have done that.
    Most of our disagreements with Mr. West have had to do with 
style rather than substance, and omissions of things that we 
thought were material to his reports. With respect to the 
lease, we attempted through the appropriations process to get 
some language that would help us on the ultimate ownership of 
the building. That process did not work. I wrote you a letter a 
few months ago suggesting another alternative for protecting 
LSC's ultimate ownership in the building, and I would like to 
explore that with you on another occasion, rather than in 
detail. But we have had not had a chance to discuss that letter 
since it was sent.
    But it was a proposal that would provide for a 
supermajority vote to Friends of LSC, who is our landlord, and 
would also add some representatives of LSC to the Friends 
board, and impose the supermajority requirement before that 
board could take any action that would be detrimental to LSC. 
We thought that was the only safety valve we could think of 
that would have additional protection to the LSC's ultimate 
ownership of the building.
    Mr. Cannon. My time is about to expire. But let me just 
ask, I have been personally involved in the issue of the 
building, and I talked to the Chairman of the Subcommittee, Mr. 
Wolf, who has a long association with LSC. And I thought we 
were making progress there. What happened between you and the 
Chairman of the Subcommittee that I'm not aware of that 
derailed ownership of the building by LSC?
    Mr. Strickland. I am not sufficiently conversant on 
appropriations language to give you an intelligent answer to 
that.
    Mr. Cannon. Were you involved in those discussions or was 
it someone else on your staff?
    Mr. Strickland. Someone else on the staff. And the advice 
given to me was----
    Mr. Cannon. Mr. Polgar raised his hand.
    Mr. Strickland. Yes, I believe he is the one who had those 
discussions, and I can't give you an intelligent answer to 
that, other than my understanding is that we were not able to 
work out any appropriations language that would help us in that 
regard, although we made the effort.
    Mr. Cannon. Thank you. I see my time has expired Mr. Watt, 
are you interested in another round?
    Mr. Watt. Mr. Chairman, I think I will pass.
    Mr. Cannon. Mr. Franks.
    Mr. Franks. Mr. Chairman, do you need any additional time?
    Mr. Cannon. I do.
    Mr. Franks. Mr. Chairman, I would be glad to give it to 
you, sir.
    Mr. Cannon. I thank the gentleman for yielding.
    Mr. Watt. If I had known you need additional time, I would 
have been happy to yield to you also. I just want the record to 
show that.
    Mr. Cannon. I apologize for keeping the gentleman here 
longer, but I would really like to work through some of these 
questions.
    Mr. West, I have heard from Mr. Strickland that the 
situation at LSC is no different from the situation at other 
entities with inspectors general appointed by the head of the 
agency. Do you agree with that?
    Mr. West. I do not completely agree with that. I'll give 
you an example. At the Postal Service--and it is actually 
something I have mentioned to Mr. Strickland some time ago--but 
the Postal Service, the part-time governors have their own 
employee that works directly for the governors, who is not part 
of the management and does a lot of the day-to-day work. That 
is different than LSC where the Board relies on management to 
provide responses to it. Management prepared much of its 
response in the lease report. Management provides responses for 
its response to my reports and the semiannual reports to 
Congress and other things. So there is a tremendous reliance 
that the Board has on the very management that I am auditing 
and investigating to prepare information, provide information 
for it.
    That is very different from the Postal Service--Mr. 
Williams could explain in greater detail--how the governors 
have their own employee whose only obligation is to be--to work 
for the governors. These employees then deal with both the 
inspector general and the postmaster general. And they're able 
to synthesize the important issues that need to go up to the 
governors. So it is a very different model.
    Mr. Cannon. Mr. Strickland has suggested that the 
differences between you and the Board are differences of style. 
Is it a matter of style? Is it a matter of personality? Or is 
there something institutional here that is difficult?
    Mr. West. It must be institutional, because the style that 
he is referring to--the IG reports that I issue are no 
different than the IG reports I issued and was involved in 
issuing when I was at Department of Labor, at the CIA, and the 
Postal Service. They are no more, quote, inflammatory, unquote, 
and no more prosecutorial.
    So I think I am doing the job that Congress put me in to do 
that the IG Act says I should do. I am doing the same job that 
IGs are doing throughout Government. So I don't think that the 
problem is with the IG.
    And looking at Mr. Quatrevaux's notes from the past, it was 
the same thing. I think there is a--there is something within 
the history--the way that the LSC is created, its culture or 
something, that is creating an aversion to having an 
independent IG who can report directly to Congress. And I think 
it is just different. I have not done a full analysis of it but 
that is my conclusion.
    Mr. Cannon. Thank you.
    Mr. Williams, based on your considerable experience in the 
inspector general community and your understanding of what is 
happening at LSC, do you believe that H.R. 6101 is an 
appropriate measure? And do you have any other recommendations?
    Mr. Williams. As I said, the provision in the Postal 
Reorganization Act is one that I find comforting. It does--the 
provision would assure that the decision to dismiss the 
inspector general be taken very seriously and not be taken in 
the heat of the moment and that it not be a partisan decision.
    And I think that in a job such as the inspector general, 
where you do speak frankly and you do conduct investigations 
that can be embarrassing or that can even involve criminal 
matters concerning the Board in this case, that that kind of--
that kind of considered judgment--it becomes very important.
    Mr. Cannon. And do you think this bill--two questions since 
my time is about to expire--this bill will help in that regard? 
And, secondly, it is apparent the LSC is having difficulty 
recognizing the appropriate role of the IG. I understand you 
addressed the Board on this topic. Did you give the Board any 
advice at that time and is it still relevant today? Do you have 
any advice to the Board in coming to terms with the concept?
    Mr. Williams. Actually, before Mr. West, Mr. Quatrevaux did 
ask me to come and speak to that Board as well. And it was the 
same issue. And on both occasions with both boards, I attempted 
to explain the importance of independence and being able to 
speak honestly about the things that you found, and that the 
purpose of the inspector general was to investigate waste and 
fraud and abuse and assure integrity within the workforce of 
the department.
    I am not sure about the culture. I'm not close enough to 
it. But it is very unusual for me to have been asked to speak 
to both boards. Something--something inside that apparatus is 
causing a level of disrespect to be directed toward the fact-
finders that can't be healthy.
    Mr. Cannon. I have been asking Mr. Strickland about this. 
There does seem to be something missing. Is that just perhaps a 
lack of experience with the responsibility that the Board has 
in the case of LSC to taxpayers? Or is something else----
    Mr. Watt. Chairman, I reclaim my time and yield you my 5 
minutes.
    Mr. Cannon. The time has expired. I thank the gentleman. 
The gentleman is recognized for 5 minutes and yields to the 
Chair. Thank you.
    Mr. Williams. It could be that it is very difficult for 
people that have a very brief, part-time presence in the city 
to grasp the principle of this kind of hard-hitting reporting 
that was required of the inspector general. But it came about 
as a result of abuse within the Government and it was intended 
to be a very strong tool. And it could be that there is a 
difficult learning curve. And as Mr. West said, apparently 
there is not a permanent staff there to help the Board with the 
learning curve.
    Mr. Cannon. Thank you, Mr. Williams.
    Mr. Strickland, I know Mr. Watt needs to leave, but I have 
many questions, although we have made some serious progress, I 
believe, here.
    In the Associated Press this morning, Mr. Polgar, who is 
the LSC Director of Government Relations and Public Affairs 
said: The board of directors never threatened to fire him and 
had no plans to take action in April when the lawmakers' 
warning letter arrived.
    However, at your Board meeting in January, Board members 
said various things. Do you recall that discussion of Mr. 
West's activity in that Board meeting? It would have been, I 
think, in January.
    Mr. Strickland. I do recall that.
    Mr. Cannon. Is what Mr. Polgar said consistent, do you 
believe, with what happened at that meeting?
    Mr. Strickland. It's important to note, Mr. Chairman, that 
the discussion in January 2006 pertained to Mr. West's 
performance during 2005, and has nothing whatsoever to do with 
the current investigation, which he undertook in March or April 
of 2006. It was past history that was being discussed. And a 
number of Board members at that meeting indicated 
dissatisfaction with Mr. West's report--reports--and found his 
work product shoddy, to quote one Board member.
    Mr. Cannon. And what was that work product? Was that the 
Georgetown building?
    Mr. Strickland. It was one of his reports; I don't remember 
which one.
    Mr. Cannon. You don't recall a discussion about the 
Georgetown building in particular?
    Mr. Strickland. I can't connect that description to a 
particular report. But the point I'm making is, it was a 
discussion of his previous work history and not having anything 
to do with the investigation that he has been doing this year.
    Mr. Cannon. Mr. Polgar referenced April. That is this last 
April, the letter that we sent. And I believe that the meeting 
that we are talking about is the meeting in January of this 
year.
    Mr. Strickland. Right. The meeting in January----
    Mr. Cannon. And that may have been past material, because 
we had had the Georgetown material already done. But things 
were said like he doesn't belong as inspector general of this 
organization. This could be interpreted as retaliation or an 
effort to undermine congressional restrictions. He has got to 
shape up or we will ship him out. I think he should be given 
notice; the only problem I have is how do we go about it.
    Don't those things suggest that the Board was actually 
going to fire Mr. West? And that was prior to the April letter 
that Mr. Polgar referred to?
    Mr. Strickland. I can't quote from the transcript. I don't 
have it in front of me. But there was certainly some discussion 
at that meeting. There was no vote taken and no vote taken 
since.
    Mr. Cannon. That is true. No vote was taken because you 
were anticipating an appropriations cycle.
    Mr. Watt. Mr. Chairman, since this is my time, let me 
reclaim long enough to suggest that all of those things you 
read there suggest responsible inquiries that Board members 
would be making about any employee of theirs.
    Mr. Cannon. Will the gentleman yield? These were not 
inquiries. These were conclusions. And they are conclusions----
    Mr. Watt. You say that they are conclusions, but no action 
was taken by the Board. So they couldn't have been conclusions 
that resulted in Mr. West's termination. Mr. West is still 
sitting here today.
    So you know, the fact that issues get raised in a Board 
meeting, that's what boards are supposed to do. They have an 
obligation, according to a legal opinion which Mr. Strickland 
has referred to, to evaluate this man's performance.
    Now, I agree that they ought not be retaliating against 
him. They ought not be undermining the purposes for which an 
inspector general is employed. But it certainly wasn't related 
to an investigation that took place in 2006, if the 
conversation was taking place in January of 2006. So we are off 
on a far--far-out fishing expedition.
    Mr. Cannon. The gentleman's time has expired.
    Mr. Watt. I ask for one additional minute and yield it to 
the Chairman. That's what I took from him and I give it back.
    Mr. Cannon. I thank the gentleman. If the gentleman would 
like to continue for a minute, that is appropriate. I thank the 
gentleman.
    Mr. Strickland, I think we've just miss mixed up a fact 
here, if you could get that straight for us. This is January of 
2006. We sent the letter in April, but the Board meeting of 
January 2006 was not about vague stuff that happened in the 
past. It is all the stuff that related to the Georgetown office 
and other criticisms that Mr. West directed to the Board for 
the Board's consideration. And it was in response to that, that 
I believe these conclusory statements were made at your Board 
meeting.
    Do you recall those statements? Am I correct about the 
timing, first of all?
    Mr. Strickland. Yes, I believe the discussion was in 
January 2006, and Professor BeVier, who chairs our performance 
reviews committee, reminded me that we believe that discussion 
occurred during a meeting of the performance reviews committee. 
And it was a discussion about what are our alternatives here. 
Can we or should we review the inspector general's performance 
and so on?
    So, ended up really putting that on a shelf and not 
delivering any feedback as such to Mr. West until much later in 
the year. And in the interim, of course, as he said in his 
testimony, he exercised his authority to obtain a copy of the 
closed-session transcript at which his performance was 
discussed.
    Mr. Cannon. You are saying that is the closed-session 
transcript of the performance evaluation subcommittee of the 
Board?
    Mr. Strickland. Correct.
    Mr. Cannon. Mr. West, you obtained a transcript. Were you 
thinking that was actually a Board meeting? Do you know?
    Mr. West. It was a performance review committee meeting.
    Mr. Cannon. Okay.
    Mr. Strickland. Mr. Chairman, may I make one other point? I 
don't want to have the record close today without making these 
points. That----
    Mr. Cannon. The Chair recognizes himself for 5 minutes and 
we will go another round of questioning.
    Mr. Watt. Mr. Chairman, if I can just interrupt you here 
briefly. I have another commitment that I must go to because 
I'm presiding over the meeting. So it is not--I don't want to 
be disrespectful. I want the Chairman to go as long as he wants 
to with as many rounds as the Chairman wants to, but I can't be 
here.
    Mr. Cannon. We shall operate with decorum.
    Mr. Watt. And since I think we are micromanaging, neither 
do I need to be here. I don't want to micromanage, Mr. 
Chairman. That is very sure.
    Mr. Cannon. I thank the gentleman. I am sorry?
    Mr. Watt. Could I interrupt long enough to ask unanimous 
consent to put the letter from--the memorandum to the board of 
directors from Covington and Burling in the record.
    Mr. Cannon. Without objection, so ordered.
    [The information referred to is available in the Appendix.]
    Mr. Cannon. If we could just take one more moment, Mr. 
Watt, I'd like to make the following motion: The unfinished 
business before the Subcommittee is the adjournment of the 
Subcommittee's June 28, 2005 hearing, which was recessed 
subject to the call of the Chair. Without objection, the 
aforementioned hearing is so adjourned. Without objection, so 
ordered. We left it open.
    I thank the gentleman for his indulgence and apologize for 
the time it has taken. I think that was adjourning the hearing 
we had before, so that record closes it out.
    Mr. Strickland, you were about to make a point. I apologize 
for that interruption.
    Mr. Strickland. Thank you, Mr. Chairman. I wanted to 
emphasize to the Committee that we have been working for months 
to improve the relationship between the agency and inspector 
general. We think we have made considerable progress in that 
regard. And the fact that we take this matter seriously, I 
think, is indicated by the presence of two of our Board members 
today, one of whom has traveled from Seattle to be present. I 
have worked on this on a personal level. I said in my opening 
statement that Professor BeVier and I have made at least two 
trips to Washington to meet directly with the inspector general 
and his staff, and then with management, with Mrs. Barnett and 
her staff, and then jointly with the entire group. And we 
thought those were productive meetings and we continue to--we 
plan to continue those efforts in the future.
    And I would point out also that as recently as last Friday 
in the preparation of the draft of the congressional 
investigation report which has now been released, we had a 
telephone conference discussion about some of the things that 
were in the report, and a good exchange between management and 
the inspector general and involvement of the Board relative to 
some of the factual assertions in the report that needed some 
revision. And the Inspector General's Office accepted those 
recommendations in large measure, and I think the report that 
was released is an improved product as a result of that.
    So I say all of that to emphasize that we have made a 
considerable investment in time and effort to work on that 
relationship and I am pleased to report, from my perspective, 
considerable progress in that regard.
    Mr. Cannon. We were talking with some particularity here 
about Mr. Polgar's statement to the press that the board of 
directors never threatened to fire him and had no plans to take 
action in April when the lawmakers' warning letter arrived. And 
you have made the distinction between the performance review 
and also--and the board of directors. But at the board of 
directors meeting, it appears that it was Ms. BeVier who is 
speaking and she speaks at some length, but the point of that 
is letting Mr. West go. She had reporting back, but she is very 
clear about letting him go and getting counsel to look at it 
and things like that.
    Is that not contrary to what Mr. Polgar had said to the 
press?
    Mr. Strickland. I need to ask you to put that in context. I 
have been talking about the January 2006 Board meeting and I 
don't understand whether you are talking about another----
    Mr. Cannon. You had a performance review meeting and then 
you had a Board meeting.
    Mr. Strickland. Yes.
    Mr. Cannon. And apparently Ms. BeVier reported to the Board 
about the review meeting, the performance review meeting. And 
in that report, she was very clear that she was suggesting that 
this Board fire Mr. West; and that that would be, it seems to 
me, clearly contradictory to what Mr. Polgar told the press.
    Mr. Strickland. I can't give you a good answer to that, Mr. 
Chairman. The context is confusing. The way you posited the 
question, I simply can't deal with it.
    Mr. Cannon. I mean, is the question confusing--in which 
case I will recast it. Or is the history confusing?
    Mr. Strickland. Perhaps a little of both. I don't know 
whether you are talking about Professor BeVier's presentation 
to the January 2006 Board meeting, and then we all of a sudden 
jump to April when we had another Board meeting.
    Mr. Cannon. You had a letter from us and that is the April 
date.
    Mr. Strickland. Yes, I don't recall any action. I have not 
reviewed the transcripts. I don't recall any action at the 
April Board meeting to--with regard----
    Mr. Cannon. Well, you had two meetings in January: the 
meeting of the performance review board and a meeting of the 
full Board.
    Mr. Strickland. Correct.
    Mr. Cannon. In the performance review board these quotes 
that I gave you were apparently made, or something like that. 
In the full Board we had a conclusory presentation, by Ms. 
BeVier it appears, where she was saying that the Board needed 
to fire Mr. West. That is clearly in contradiction to what Mr. 
Polgar told the press if that is the case, unless I am missing 
something.
    Mr. Strickland. Ms. BeVier is here. She may clear the 
record on that.
    Mr. Cannon. Perhaps she can explain to you and we will go 
to Mr. West and just ask if you were aware of these things, did 
you find that intimidating?
    Mr. West. Mr. Chairman, I was not aware of that at the time 
because it was a closed Board transcript, I had not seen it. I 
had been--you know, I heard sort of rumors. I had nothing 
specific in information because I didn't see the closed Board 
transcripts until sometime--I think it was probably June.
    I would like to clear up one other thing in terms of what 
is different about the Legal Services IG and other IGs who 
serve on boards. And that is something I addressed earlier, 
which is I am an ``at will'' employee. I can be fired without 
cause, without a hearing. And that is true of any LSC IG. That 
is different than most of all the other Federal IGs who are 
hired by their agencies. They have Merit System Protection 
Board rights and they have the rights of Federal employees. I 
don't have any of those rights, so it puts the IG at Legal 
Services Corporation in a much more tenuous position.
    And another thing I would like to make clear--I said this 
in my larger statement--this is somewhat uncomfortable to 
support a bill like this because, as Mr. Watt said, it could 
appear to be self-serving. But I am doing this for the 
institution of the Office of Inspector General, not for myself. 
I don't know how much longer I will be in the job but I am 
concerned about the long-term prospects, that if I leave, the 
next IG is going to go through the same thing that I went 
through and Mr. Quatrevaux went through.
    Mr. Cannon. That is the IG at LSC, and this bill actually 
would tend to have a tendency to solve that problem, would it 
not?
    Mr. West. That's correct Mr. Chairman.
    Mr. Cannon. Has a performance review ever been completed by 
the Board or by its subgroup?
    Mr. West. As far as I know, there is--it has been told to 
me that they are still discussing it. It is a little 
disconcerting about this Covington and Burling memo, because I 
was told that I had an opportunity to respond to the memo 
before it was going to be considered; yet I have been told it 
is a dispositive memo.
    I would also like to point out, Mr. Chairman, that I think 
the memo itself is flawed. There is--and I am really surprised 
that a law firm such as Covington and Burling would do this--
they make an assertion in one of the footnotes that the 
Sarbanes-Oxley Act does not apply to nonprofits, and they make 
a point of trying to ridicule my seasoned attorney who put this 
together. However, if you go to the ABA Web site and you read 
the Sarbanes-Oxley Act, you realize there are two provisions of 
the Sarbanes-Oxley Act that do in fact apply to nonprofit 
corporations. So I would suggest that the corporation didn't 
get the value of the money they paid for this opinion, if it is 
flawed.
    Mr. Cannon. I understand it is like $22,000?
    Mr. West. I have heard it is somewhere in that ballpark.
    Mr. Cannon. Mr. Strickland, have you clarified the timing 
here?
    Mr. Strickland. I did have a chance to speak to Professor 
BeVier, and her recollection is that in January, both in the 
performance review committee and at the Board meeting, in 
summary form, we were considering alternatives, we were 
considering fairness, and we were deciding, I think, to seek 
advice from outside counsel in terms of whether or not the 
Board should even do a performance review of the inspector 
general going forward. It is still an open question. There is a 
raging debate about it.
    Mr. Cannon. My question to you is did Mr. Polgar tell the 
truth when he said that the Board had no plans to take action 
in April? Had no--prior to April. In other words had the Board 
threatened Mr. West or not?
    Mr. Strickland. I don't think the Board had threatened Mr. 
West. I take exception to that characterization.
    Mr. Cannon. What would you call it?
    Mr. Strickland. I would call it a discussion of 
alternatives.
    Mr. Cannon. This kind of discussion, It is very long and 
unfortunately I don't think we can read it all. We talk about 
conflicts of interest, breach of fiduciary responsibilities. 
These are conclusions about Mr. West: ``So that to have that 
undermined by allegations that are deemed--that we regard as 
unwarranted, and that are at least, presented in an 
inflammatory way, . . . seems to be not in the Corporation's 
best interest. . . .
    ``We plan to have outside counsel review that with an eye 
to the possibility, and I stress that, I really stress that we 
are only sort of thinking about the possible worst-case 
scenario, which would be possibly deciding that we had to let 
Kirt go, and we reduce that to writing, give it to counsel.''
    And so you are going to counsel to talk whether or not--
there is a lot of equivocating language in there, but you are 
talking about firing the guy and getting counsel to cover you 
when you fire him; have the counsels look at it so as to make 
sure that what we have done is careful enough. So we have a 
conclusion. We are just looking to counsel to ratify it.
    In the context of that, wasn't Mr. Polgar's statement to 
the press misleading?
    Mr. Strickland. I can't comment on Mr. Polgar's statement. 
I didn't make it and I don't care to comment on that, and I 
think the transcript speaks for itself as to what it says.
    Mr. Cannon. I understand the Board has not completed a 
performance review of the IG, yet you told Subcommittee staff 
last week that a review had been completed last year. Did the 
Board conduct a review? Is it complete?
    Mr. Strickland. I would say it is in some stage of 
completion. The continuing debate about whether or not it is 
appropriate for the Board of LSC to review the inspector 
general is ongoing. We went through a process in the fall of 
2005. We reduced that to writing. We elected not to present 
that writing to Mr. West. And that's my best recollection of 
it.
    Mr. Cannon. So when you say then that it was reduced to 
writing, that means that what you told staff the other day--
that you completed it--means that you completed it, and now you 
are saying it is not completed in the sense that you haven't 
given it to Mr. West?
    Mr. Strickland. Perhaps that is more accurate.
    Mr. Cannon. What is the conclusion of that review?
    Mr. Strickland. I don't recall the specifics of it. Ms. 
BeVier wrote it and I don't think it is published anywhere. I 
think it is in her own notes. I don't have those notes.
    Mr. Cannon. Are you aware of any instance in LSC history 
when the LSC president has refused to attend a hearing when her 
presence was requested?
    Mr. Strickland. Don't have the history on that, Mr. 
Chairman.
    Mr. Cannon. And during a recent bipartisan briefing 
including House and Senate staff, I understand you emphasized 
that you are chairman of a part-time board, unfamiliar with the 
IG concept. Moreover, when speaking about your relations 
between the IG and the LSC, you said emphatically: ``All I know 
is what I am told.''
    Given this admission, why do you think it is inappropriate 
for President Barnett to be here today, given the fact that you 
lacked understanding and that she is the one who apparently 
tells you what you're told?
    Mr. Strickland. I don't understand that question, Mr. 
Chairman, I'm sorry.
    Mr. Cannon. Ms. Barnett is not here today, in part because 
you counseled her that her appearance is not appropriate. You 
said in the past that the only thing you know about is what she 
tells you essentially, because you only know what you are told.
    Why is it that she is not here to answer some of these 
questions that you are vague on?
    Mr. Strickland. My understanding of her reason for not 
being here today is a level of discomfort relative to the fact 
that on its face the report released by the inspector general 
states that certain matters relative to Ms. Barnett are still 
open matters under investigation. And she--and, again, my 
understanding--felt that it would be inappropriate for her to 
testify while an investigation regarding her conduct is still 
ongoing.
    Mr. Cannon. Have members of the Board had a discussion 
about the strategy of dealing with this Committee or firing Mr. 
West or dealing with Congress or appropriations generally in 
the context of the November elections?
    Mr. Strickland. No.
    Mr. Cannon. The Board has never discussed the possibility 
of a change in the control of the House of Representatives as 
it relates to your strategy at LSC?
    Mr. Strickland. Not that I recall. If the Chairman is 
referring to something specific, I'll be glad to try to comment 
on it, but that is my best recollection.
    Mr. Cannon. I see my time has expired. Mr. Gohmert, do you 
seek recognition?
    Mr. Gohmert. Thank you, Mr. Chairman. I appreciate the 
opportunity to be part of the hearing. And it breaks my heart 
that anybody would have a level of discomfort if they were to 
come here to this hearing.
    But, Mr. Strickland, when you were having trouble 
understanding the Chairman's question, as a former judge and 
chief justice, let me explain my perspective on why it would 
have been nice to have the president here. I mean, you're the 
chairman of the board. I mean, somebody might make an analogy 
to the Board being a little like the grand jury, and you have 
the president that actually works there full time, comes and 
makes presentations. You have got to rely on them. You're 
counting on what they have to say. You don't get necessarily 
first person or direct evidence, you get hearsay through the 
president.
    And so since the president appears to gather evidence, and 
we like to hear evidence here, we would prefer to have second-
hand hearsay from the president rather than third or fourth 
hearsay from people that the president tells stuff and then 
sends out as a barrier between him or her and this hearing.
    So it is just nice to have direct evidence or as close to 
direct as we can get. And I hope people here understand our 
concerns. My understanding is we spend about $330 million from 
Congress each year on the LSC. And having known people who 
tried to assist the poor, the oppressed, the downtrodden, often 
pro bono, working for basically free but being subsidized 
somewhat by the LSC to keep them out there in the field, 
helping the downtrodden and oppressed and the poor, it is kind 
of tough when you read that the Board of the LSC, I guess, 
spent over $8,700 for hotel food at its January 2006 Board 
hearing. And, see, it would be nice to know if any of the poor, 
the downtrodden, the oppressed were invited to enjoy that food 
with the Board of the LSC, or was that so that they could fully 
appreciate the plight of the poor, the downtrodden, and the 
oppressed?
    LSC apparently, according to the report, spent over 
$100,000 since August of 2000 on coffee, holiday parties, 
picnics, working lunches, and business entertainment, and even 
thought the LSC doesn't have to follow the Federal spending 
practices. It is kind of nice for a group that is trying to 
help the poor, the oppressed, and the downtrodden if they don't 
look overly extravagant or twice as extravagant as other 
Federal agencies.
    But to spend over a million in the last 10 years on 
settlement agreements with 27 departing employees tells me that 
there was a great deal of concern about maybe the mistreating 
of the employees who were assisting the poor and the 
downtrodden and the oppressed.
    So I have concerns, again, when I read these kind of 
reports and then I see that the chairman of the board, rather 
than the one with closer evidence, closer to being direct and 
one step removed in the hearsay process, has to come and stand 
as a shield. And I'm sure you may disagree with that 
terminology, but if I put my judge hat back on, that is sure 
the way it looks from here. You got sent out as a shield from 
somebody who has been running things.
    And it does cause me great concern when the inspector 
general is in a situation of, on the one hand, rendering a 
report about problems within any group or agency or something 
like the LSC, and then, on the other hand, can be fired if he 
reports things that are unpleasant to the Board. Boy, you talk 
about a catch-22.
    Mr. West, you are not in a very enviable position. I don't 
know a lot of people that would want to be in your shoes, 
having to report sometimes negatively on the people that are 
out there and have the right to fire you without cause. Is that 
right; without cause?
    Mr. West. I am an ``at will'' employee so it can be without 
cause.
    Mr. Gohmert. Obviously, if you go issuing reports talking 
about how much they overspend at their meetings and then when 
the president says, well they need to do these meetings at a 
hotel because their conference room is too small. And then, as 
I understand it, you issue a statement saying that actually the 
headquarters meeting room is slightly larger than the rooms 
used at the upscale hotel, that may give them cause to want you 
fired. You're not being very helpful to them.
    So anyway I appreciate the opportunity to have this 
hearing, to hear from the folks. I have not been out here the 
entire time. I have been listening from the back room for much 
of the hearing. And it has been quite informative, but not 
informative enough.
    And you know, I also see analogies to the boards of 
directors of banks back in the eighties back in Texas, who were 
only told what they needed to know by the president. And while 
the ship was sinking, they had no idea. They had no idea. They 
were just given information that everything is rosy, and have a 
good Board meeting. And never really got to the basics.
    So Mr. West, let me just ask you, what do you think would 
give an inspector general over the LSC a comfort level to do 
the job very effectively without worrying about more arrows 
coming from behind than from the front?
    Mr. West. I think the strongest protection that could be 
given is not something that Mr. Cannon has proposed, and that 
is to make the IG a presidential appointee, because then it 
would require a political process to remove the IG, which 
happens with those who are presidentially appointed. And I'll 
give you an example.
    Mr. Gohmert. Of course, you understand that making it a 
political process is not the prettiest picture.
    Mr. West. I understand, but let me give you an example. I 
am friends with the IG at the Department of Agriculture. Last 
year----
    Mr. Gohmert. So you do still have some friends.
    Mr. West. And Mr. Williams is my friend, too. She issued a 
report regarding the Department of Agriculture missing catching 
mad cow disease. When the Secretary of Agriculture wanted that 
issue dealt with, he was furious because, you know, she issued 
a report, they missed mad cow disease. That is a big concern to 
the American public. He went out and said he wanted her fired. 
But he couldn't fire her. He said it was outrageous what she 
did, and it was embarrassing to the Department of Agriculture, 
et cetera. It would have required the White House to do that. 
And I can tell you in Washington, that would not have flown. 
There is no way the President is going to fire an IG for 
reporting something about mad cow disease.
    That is what I meant by the political process. It gets in 
there and it is not just within the agency but it goes beyond 
that. Mr. Cannon's bill doesn't go that far. It requires a 
supermajority, not unlike the supermajority that Mr. Strickland 
was proposing for the arrangement with Friends of Legal 
Services with respect to the interests regarding the LSC lease. 
So I think it is a compromise. It is not as strong as the 
Postal Service bill that Mr. Williams has, because that also 
not only has a supermajority but it has a ``for cause'' 
provision as well. But I think this would give more than 
adequate security.
    It is my position that given the makeup of the Board, if 9 
out of the 11 would so make that decision, then the IG probably 
needs to go. But there would be some built-in protections, much 
more than there are now.
    Mr. Gohmert. If I could finish by saying this: I know the 
LSC has done great things for people who could not get help any 
other place. And I appreciate those who have spent the time and 
their own resources to try to help people who desperately 
needed it. So don't misunderstand my feelings. I just hate to 
see somebody that is supposed to be helping the poor and the 
oppressed actually taking that money and it not getting to the 
poor and the oppressed or those actually doing the direct help. 
Thank you, Mr. Chairman.
    Mr. Cannon. The gentleman yields back. I ask unanimous 
consent to make the January transcripts of the Minutes of the 
Board and the Performance Review Committee part of today's 
record. And hearing no objection, so ordered.
    [The information referred to is available in the Appendix.]
    Mr. Cannon. Mr. Strickland, your vice chairman publicly 
indicated in a recent interview that the Board had not decided 
whether to fire the IG, along the lines of what Mr. Polgar 
said. That looks like an attempt to communicate something 
outside that is probably inconsistent with the truth.
    Have there been discussions about trying to look in public 
like you are not going to fire Mr. West?
    Mr. Strickland. Not that I recall.
    Mr. Cannon. Could there have been those kinds of 
discussions?
    Mr. Strickland. Beyond what I just said, I don't think I 
can comment further.
    Mr. Cannon. Board members are quoted as saying things like 
the IG should shape up or we will ship him out. As you know, 
Mr. Strickland, the Subcommittee generally accepted the IG's 
findings regarding the LSC lease and held a hearing last year 
on the matter. After that, the IG found more examples of 
profligate spending at the LSC. The IG has just concluded two 
investigations, requested by this Subcommittee, into spending 
practices at LSC and violations of the law by a California 
grantee. Reports on these matters have just been issued.
    In what way did the Board want the IG to shape up?
    Mr. Strickland. Mr. Chairman, I think there is a disconnect 
there between those comments which were made in January 2006 
and today. That was months ago those statements were made. And 
only in the past day or two has--or actually yesterday, I 
guess, the IG report was released in final form. And only a 
matter of a few days before that, the report on CRLA was 
released. So we are in the midst of dealing with those things 
on a current basis. So there is a total disconnect between 
remarks made in January 2006 and what we have to do----
    Mr. Cannon. Does the Board like Mr. West today?
    Mr. Strickland. Like Mr. West?
    Mr. Cannon. And his work?
    Mr. Strickland. I have no personal problems with Mr. West, 
other than some style issues, as I said a moment ago, and an 
occasional substance issue.
    Mr. Cannon. But those are past now? You are referring to 
issues that are now long since past, I take it?
    Mr. Strickland. Yes. And Mr. West and I have had some frank 
discussions on those disagreements.
    Mr. Cannon. Have you resolved those disagreements?
    Mr. Strickland. As I said a moment ago in a statement that 
you allowed me to make, I have invested a considerable amount 
of personal time in improving the working relationship between 
the Board, the management, and the IG. And I hope Mr. West 
would agree that we have had productive discussions. And I 
would commit on my own behalf, and I hope on behalf of the full 
Board, to continue that effort.
    Mr. Cannon. Does that mean we can expect to you argue 
strongly in favor of retaining Mr. West in a Board meeting if 
the issue of his being fired comes up?
    Mr. Strickland. Well, it is a hypothetical question, and I 
can't speak for the whole Board.
    Mr. Cannon. I'm just asking you about you arguing in behalf 
of Mr. West and against firing him.
    Mr. Strickland. I would argue that Mr. West needs to be 
treated fairly and in accordance with the law.
    Mr. Cannon. If there is no further problem that gives you 
reason, so in fairness--I'm not sure where fairness comes in. 
He is ``at will'' as he pointed out. But if this bill doesn't 
pass and the Board wants to consider his removal, unless 
something new happens, will you argue strongly in his support?
    Mr. Strickland. I think that what I said a moment ago is an 
accurate portrayal of how the Board ought to function. The 
Board has the legal responsibility, according to the advice we 
have been given by counsel, that we are supposed to review his 
performance and treat him fairly. I would commit to you that I 
think our Board will do that. I certainly am not going to 
advocate firing Mr. West. That is not high on my agenda.
    Mr. Cannon. But will you advocate to not fire him?
    Mr. Strickland. Under certain circumstances, I might, yes.
    Mr. Cannon. I'm sorry; you might advocate to fire him, or 
not?
    Mr. Strickland. I might advocate not to fire him under 
certain circumstances, yes.
    Mr. Cannon. We have a lot of water under the bridge here. 
And Mr. West has done, I think, a remarkably good job in 
meeting the interests of this Committee. Given that context, 
I'd like to know whether you want to see him fired or whether 
you will advocate to not fire him in the future. And I haven't 
had an answer to that.
    Mr. Strickland. I don't know what circumstances might 
confront us in the future, Mr. Chairman.
    Mr. Cannon. Well, you have--let's move on it.
    Apparently the LSC board does not support H.R. 6101, 
finding it unwise. Other than simply treating LSC differently, 
please describe what you think would be the consequence of 
passing this bill so as to make passage unwise or ill-advised. 
Are you aware of particulars?
    Mr. Strickland. Similar to what I said in my opening 
statement, that during my tenure on the Board for 3\1/2\ years, 
I don't know that we have ever had a full Board of 11 members. 
If we did it was only for a short period of time. We have 10 at 
the moment. The bill would require a vote of 9 out of 10.
    Mr. Cannon. In your testimony you criticize us for not 
offering a rationale for H.R. 6101 which offers protection to 
the LSC IG. I find this more than a bit disingenuous in light 
of the actions by the LSC board to date with respect to the IG. 
We have all seen what the Board discussed. They discussed the 
firing of the IG. They did this at a time when the IG was 
conducting an investigation requested by me and two Senate 
Chairmen into the activities of the LSC and the LSC president. 
How can you not discern the rationale for this legislation?
    Mr. Strickland. I think I need to take exception to part of 
your question in that, unless I have gotten confused on the 
context. The discussion that was contained in the meeting 
transcripts, as I have said several times, was in January 2006, 
before the committees referred this investigation to Mr. West. 
We have not been engaged in discussions about--to my 
knowledge--we have not been engaged in discussions about firing 
Mr. West since this investigation commenced.
    Mr. Cannon. But what we're talking about is my rationale in 
introducing this bill, and your discussion of firing him 
certainly goes to my rationale. You recognize that there is 
reason behind this bill?
    Mr. Strickland. If your rationale dates back to January 
2006, and you're saying it was not proper for us to have a 
discussion about the possibility, then perhaps that is some 
rationale.
    Mr. Cannon. Thank you.
    One final question. Do you perceive a difference between 
the general supervision authorized by the IG Act and the direct 
supervision that is the norm for employer and employee 
relationships? That is, how does the Board's supervision of the 
president, over whom the Board has direct supervision, differ 
from the Board's supervision of the IG, over whom you have 
general supervision? Given this important distinction I am sure 
the Board's processes for evaluating performance differed 
between the two. Would you please describe the approach that 
the Board took?
    Mr. Strickland. Your statement is correct that the Board 
has direct supervision over the president and can set her 
agenda. The Board has dual responsibility, if you will, with 
the Congress in terms of to whom the inspector general reports. 
We cannot set the inspector general's agenda, and we have not 
set his agenda and have no intention of doing so.
    We do have--we believe, as we understand the law and we 
have been advised on the law--that we have an obligation and a 
duty to review his performance as a part of our general 
supervision. But in no way have we set his agenda, nor do we 
intend to do so.
    Mr. Cannon. But my question went to what are the 
differences in how you evaluate his performance as opposed to 
how you evaluate the performance of the president of LSC?
    Mr. Strickland. What we did with respect to that in 
connection with our 2005 review was present to Mr. West a 
series of guidelines that the agency had used historically for 
the review of the inspector--performance review of the 
inspector general, and ask for his input on those guidelines. 
And as I recall it, after receiving his input we used his 
guidelines, which are not the same as we used for the 
president.
    Mr. Cannon. Thank you. We appreciate you all being here. 
This is, I believe, an important issue: how we operate, what 
role the Congress plays. We have fewer investigators now than 
we have historically had, and I personally think we ought to 
have more. But in the absence of that, having an aggressive and 
effective IG I think is very important.
    As I have said in the past to you, Mr. Strickland, and the 
Board, all should understand that I view the role of the 
inspector general as a bulwark of protection for you and your 
reputations.
    Without objection, the witnesses will have 5 days--or the 
panel will have 5 days to make further questions in writing 
available to the panel. And with that, this hearing will be 
adjourned.
    Mr. Strickland. Thank you, Mr. Chairman.
    [Whereupon, at 3:58 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Letter from Edouard R. Quatrevaux to the Honorable Chris Cannon, a 
   Representative in Congress from the State of Utah, and Chairman, 
           Subcommittee on Commercial and Administrative Law

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Memorandum to Board of Directors of the Legal Services Corporation from 
                       Covington & Burling L.L.P.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  January Transcripts of the Minutes of the Board and the Performance 
           Review Committee of the Legal Services Corporation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
